<html>
<title> - FIGHTING METHAMPHETAMINE IN THE HEARTLAND: HOW CAN THE FEDERAL GOVERNMENT ASSIST STATE AND LOCAL EFFORTS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





    FIGHTING METHAMPHETAMINE IN THE HEARTLAND: HOW CAN THE FEDERAL 
               GOVERNMENT ASSIST STATE AND LOCAL EFFORTS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 6, 2004

                               __________

                           Serial No. 108-179

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
95-267                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
------ ------                                    ------
------ ------                        BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
NATHAN DEAL, Georgia                 ELIJAH E. CUMMINGS, Maryland
JOHN M. McHUGH, New York             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                WM. LACY CLAY, Missouri
DOUG OSE, California                 LINDA T. SANCHEZ, California
JO ANN DAVIS, Virginia               C.A. ``DUTCH'' RUPPERSBERGER, 
EDWARD L. SCHROCK, Virginia              Maryland
JOHN R. CARTER, Texas                ELEANOR HOLMES NORTON, District of 
MARSHA BLACKBURN, Tennessee              Columbia
                                     ------ ------

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
        Nicholas Coleman, Professional Staff Member and Counsel
                         Nicole Garrett, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 6, 2004.................................     1
Statement of:
    Burns, Scott, Deputy Director for State and Local Affairs, 
      Office of National Drug Control Policy; and Armand 
      McClintock, Assistant Special Agent in Charge, 
      Indianapolis, IN, District Office, Drug Enforcement 
      Administration.............................................     5
    Carraway, Melvin, superintendent, Indiana State Police; 
      Curtis T. Hill, Jr., prosecuting attorney, Elkhart County 
      Prosecuting Attorney's Office; Bill Wargo, chief 
      investigator, Elkhart County Prosecuting Attorney's Office; 
      Daniel Anderson, Starke County Sheriff's Department; and 
      Tony Ciriello, Kosciusko County Sheriff's Department.......    35
    Enyeart, Kevin, Cass County prosecutor; Doug Harp, chief 
      deputy, Noble County Sheriff's Office; Sergeant Jeff 
      Schnepp, Longansport-Cass County Drug Task Force; Brian 
      Connor, Acting Executive Director, the Center for the 
      Homeless, South Bend; Barry Humble, executive director, 
      Drug & Alcohol Consortium of Allen County; and Benjamin 
      Martin, Serenity House, Inc................................    87
Letters, statements, etc., submitted for the record by:
    Anderson, Daniel, Starke County Sheriff's Department, 
      prepared statement of......................................    61
    Burns, Scott, Deputy Director for State and Local Affairs, 
      Office of National Drug Control Policy, prepared statement 
      of.........................................................     8
    Carraway, Melvin, superintendent, Indiana State Police, 
      prepared statement of......................................    38
    Ciriello, Tony, Kosciusko County Sheriff's Department, 
      prepared statement of......................................    68
    Connor, Brian, Acting Executive Director, the Center for the 
      Homeless, South Bend, prepared statement of................   106
    Enyeart, Kevin, Cass County prosecutor, prepared statement of    91
    Harp, Doug, chief deputy, Noble County Sheriff's Office, 
      prepared statement of......................................    98
    Hill, Curtis T., Jr., prosecuting attorney, Elkhart County 
      Prosecuting Attorney's Office, prepared statement of.......    46
    Humble, Barry, executive director, Drug & Alcohol Consortium 
      of Allen County, prepared statement of.....................   112
    Martin, Benjamin, Serenity House, Inc., prepared statement of   117
    McClintock, Armand, Assistant Special Agent in Charge, 
      Indianapolis, IN, District Office, Drug Enforcement 
      Administration, prepared statement of......................    20
    Schnepp, Sergeant Jeff, Longansport-Cass County Drug Task 
      Force, prepared statement of...............................   101
    Wargo, Bill, chief investigator, Elkhart County Prosecuting 
      Attorney's Office, prepared statement of...................    53

 
    FIGHTING METHAMPHETAMINE IN THE HEARTLAND: HOW CAN THE FEDERAL 
               GOVERNMENT ASSIST STATE AND LOCAL EFFORTS

                              ----------                              


                        FRIDAY, FEBRUARY 6, 2004

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                       Elkhart, IN.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
the Elkhart City Council Chambers, 229 South Second Street, 
Elkhart, IN, Hon. Mark Souder (chairman of the subcommittee) 
presiding.
    Present: Representatives Souder and Chocola.
    Staff present: Nicholas Coleman, professional staff member 
and counsel; and Nicole Garrett, clerk.
    Mr. Souder. The subcommittee will now come to order. Good 
morning. Thank you for being patient as we are setting up here.
    Let me kind of briefly, before I do my normal opening 
statement, describe a little bit what this subcommittee is. It 
is the Subcommittee on Criminal Justice, Drug Policy and Human 
Resources of the Committee on Government Reform, and I chair 
this.
    We have many agencies that we do oversight--HHS, Department 
of Health & Human Services, Department of Education, Department 
of Justice, Department of Commerce, Department of Housing & 
Urban Development are all under our subcommittee. We spend 
about 50 percent of our time and staff on narcotics policy. It 
is the main narcotics committee in the U.S. Congress. We not 
only have oversight over any department, whether it is Defense, 
State Department, DEA, whatever the agency is, on narcotics 
policy. We also authorize, which means we write the laws that 
relate to the Office of National Drug Control Policy [ONDCP], 
commonly known as the drug czar's office, in addition to the 
community action funds that go through our committee--COPS, 
Drug Free Workplace, a lot of different bills move through. So 
we are unusual in that we are authorizing and oversight on 
narcotics policy.
    We do many different hearings and this one is focused on 
meth. On Monday, we will be in Florida on Oxycontin where last 
fall they had something like 10 deaths in the high schools in 
just a couple of weeks and much of the center of the Oxycontin 
addiction problem is there, so we will be there on Monday.
    We deal with lots of different issues. In a little over 2 
weeks, we will be doing a hearing on the heroin problem coming 
out of Afghanistan in Washington. But that gives you kind of an 
idea of the range of this.
    Also, in our House Rules, you are supposed to have a 
majority and a minority Member unless the minority is going to 
waive. We have a very collegial atmosphere in our committee, 
that meaning we get along very well and Elijah Cummings, the 
ranking Democrat, with the Congressional Black Caucus, is a 
close friend of mine and we work together on the different 
hearings. He gives me a lot of flexibility, he does not like to 
travel as much and so he is willing to give me a waiver, we do 
so on multiple hearings. He has been in Fort Wayne with me as 
well as Congressman Davis. Congressman Davis would have been 
here except for the Democratic retreat this weekend and they 
decided that they had better show party loyalty as opposed to 
loyalty to me today. But I appreciate their willingness to go 
along to work on the narcotics issues on a bipartisan basis in 
the U.S. Congress. They too are very concerned about meth, even 
though meth is not the biggest challenge. The Democratic 
members on my committee are mostly from urban big cities and 
meth is not the biggest challenge in their cities, but they are 
supportive in helping us tackle problems that are more in our 
districts just like we try to help them. Elijah represents the 
city of Baltimore, which is one of the highest drug abuse areas 
for cocaine and heroin, among other things, and we are trying 
to work with him.
    With that, it is a pleasure to have you at this hearing in 
Indiana. I would like to thank you all for coming. This hearing 
continues our subcommittee's work on the problem of 
methamphetamine abuse, a problem that has been ravaging our 
region, our State and our Nation.
    Meth is among the most powerful and dangerous drugs 
available. It is also relatively easy to make from common 
household or agricultural chemicals and simple cold medicines. 
It comes from two major sources of supply. The most significant 
source comes from the superlabs in California and northern 
Mexico. Most meth in Indiana comes from those superlabs as 
well, even though what we read about are the small labs. These 
superlabs account for over 70 percent of the Nation's supply of 
meth. The superlabs are operated by large Mexican drug 
trafficking organizations that have used their established 
distribution and supply networks to transport meth throughout 
the country.
    The second major source of meth comes from small local labs 
that are generally unaffiliated with major trafficking 
organizations. These labs have proliferated throughout the 
country, particularly in the Midwest. The total amount of meth 
actually supplied by these labs is relatively small; however, 
the environmental damage and the health hazard they create make 
them a serious problem for local communities, particularly the 
State and local law enforcement agencies charged with the duty 
to uncover and clean them up. In Indiana, for example, more 
than 20 percent of the labs raided by police were discovered 
only after they had exploded and started fires. Children are 
often found at meth labs, and have frequently suffered from 
severe health problems as a result of the hazardous chemicals 
used in drug manufacturing.
    By the way, our first major meth hearing was I believe 
about 5 years ago where Congressman Mica and I went to northern 
California after a lab blew up and killed a young daughter and 
led to the creation of California's legislation that made 
having a meth lab where children were present a crime in 
California. Other States ought to be doing that. They have had 
lots of child deaths, particularly from these superlabs.
    Our previous hearings, held in Washington, have looked at 
the problem from a national perspective, but today, and at 
those hearings on the national perspective, we had testimony 
from the States. Indiana is not the highest, we are increasing 
and we are high, but the highest are actually Arkansas and 
Missouri after California and Hawaii, which is up almost as 
high as Arkansas and Missouri. We have had testimony from those 
States in Washington and we are looking at doing more field 
hearings as we look at the meth problem there. For example, 
Hawaii got a $2 million supplemental to try to tackle their 
health problems in the recent budget, related to 
methamphetamine.
    Our previous hearings, held in Washington, looked at from a 
national perspective, but today we are going to look at a 
specific region that has been hard hit by meth trafficking and 
abuse right here in northeastern Indiana. In Indiana alone, the 
State Police reported that 1,260 drug labs were raided in 2003, 
up 26 percent from the 998 seized in 2002. And most of those 
labs were meth labs. The problem is particularly severe in our 
rural areas, where meth cooks can steal precursor chemicals 
like anhydrous ammonia from local farmers, and then manufacture 
the drug in secrecy. Major meth trafficking organizations have 
also made inroads. Roman J. Montero and Cesar Anguiano, for 
example, were recently sentenced for running the largest meth 
trafficking organization in Indiana history.
    The Federal Government has responded to the meth problem 
both here and elsewhere with stricter laws against the 
precursor chemical trade, tougher enforcement, and farsighted 
treatment and local assistance initiatives. The growth of the 
problem has spurred calls for further action. Most proposals 
have focused on the need to assist local law enforcement in 
finding and cleaning up numerous small meth labs. A well-
balanced approach, however, will have to address both the 
smaller labs and the major traffickers that supply most of the 
Nation's meth. The Federal Government must also find new ways 
to help States and local communities provide treatment for meth 
addicts, and prevent meth abuse from starting in the first 
place. Outreach to treatment providers, schools and pharmacists 
is crucial to success. We will hear from Superintendent 
Carraway about the $700,000 that just passed the Senate. We 
passed it in the House in December and the Senate passed it in 
January for $700,000. I believe it is for Indiana and how we 
might use that money on the meth issue.
    One proposal, offered by our colleague Congressman Doug 
Ose, provides for a broad range of initiatives aimed at the 
meth problem. Among other things, H.R. 834 would provide funds 
to help States and localities find and clean up meth labs, 
including expanding assistance under the Community Oriented 
Policing Services [COPS] grant program. Additional resources 
for treatment and prevention at the local level are also made 
available. I am a co-sponsor of this bill and strongly support 
it.
    This hearing will address these and other potential 
solutions to the difficult issues surrounding the meth problem 
here in Indiana. I first want to thank Congressman Chris 
Chocola for joining us today. I am actually joining him, this 
particular spot is in his district, and I appreciate him 
hosting us here and for the assistance that he and his staff 
provided for our subcommittee in setting up this hearing.
    We also welcome two witnesses who have joined us to discuss 
the Federal Government's response to the meth problem: Mr. 
Scott Burns, Deputy Director for State and Local Affairs at the 
White House Office of National Drug Control Policy, and Mr. 
Armand McClintock, Assistant Special Agent in Charge at the 
Indianapolis District Office of the Drug Enforcement 
Administration.
    At a hearing like this, it is vitally important for us to 
hear from the State and local agencies forced to fight on the 
front lines against meth and other illegal drugs. We welcome 
Mr. Melvin Carraway, superintendent of the Indiana State 
Police, who we all see at the gas pumps every day; Mr. Curtis 
Hill, prosecuting attorney for Elkhart County; Mr. Bill Wargo, 
chief investigator at the Elkhart County Prosecuting Attorney's 
Office; Detective Daniel Anderson of the Starke County 
Sheriff's Department; Corporal Tony Ciriello of the Kosciusko 
County Sheriff's Department; Mr. Kevin Enyeart, the Cass County 
prosecutor; Mr. Doug Harp, chief deputy of the Noble County 
Sheriff's Office; and Sergeant Jeff Schnepp of the Logansport-
Cass County Drug Task Force.
    We also welcome three witnesses whose work in the field of 
drug treatment and prevention is of vital importance here in 
northeastern Indiana: Mr. Brian Connor, acting executive 
director of the Center for the Homeless in South Bend; Mr. 
Barry Humble, executive director of the Drug & Alcohol 
Consortium of Allen County; and Mr. Benjamin Martin of Serenity 
House, Inc.
    We thank everyone for taking the time to join us this 
morning, and look forward to your testimony.
    With that, I would like to yield to my friend, Congressman 
Chocola.
    Mr. Chocola. Thank you, Mr. Chairman, and thank you very 
much for taking the initiative to hold this very important 
hearing on a very important topic.
    I would also like to thank all the witnesses for joining us 
today and braving our beautiful Indiana weather. It is always a 
great thing to have people get up in the morning and slush 
through the snow.
    But this is a very important issue. It is hard to pick up a 
paper in the morning and not see a report on a meth lab that 
was raided or someone picked up for dealing or usage of 
methamphetamine.
    I have only been in Congress a year, and just since I have 
been in Congress, I have seen that it is a growing problem that 
is faced in essentially every community in my district and I do 
not think my district is unique. My district is relatively 
rural and working with local law enforcement officials, we see 
that it is an ever-increasing problem every single day.
    I think last year there were over 1,200 meth labs 
confiscated, and that was a large increase over the year 
before. So it is an ever-increasing problem.
    I guess it is good news that we are finding more, but the 
bad news is probably that there are more that we do not know 
exist. And that is growing every day.
    So it is clearly going to take cooperation between local, 
State and Federal officials to address this problem and I think 
rectify the situation. I think we are very fortunate today to 
have representatives from every perspective on how we can 
effectively address the problem.
    So thank you again for coming. Thank you, Mr. Chairman, for 
having the hearing today and I look forward to the testimony.
    Mr. Souder. Just a couple of procedural matters. I ask 
unanimous consent that all Members have 5 legislative days to 
submit written statements and questions for the hearing record 
and any answers to written questions provided by the witnesses 
also be put in the record. Without objection, it is so ordered.
    Second, I ask unanimous consent that all Members present be 
permitted to participate in the hearing. Without objection, it 
is so ordered.
    Let me explain one other thing. Mr. Burns and Mr. 
McClintock are both familiar with this, the rest of you may 
think this is a little strange, so let me explain this. It is 
the standard practice of this committee, because we are an 
oversight committee, to swear in all of our witnesses. To put 
in context what Government Reform oversight does, we are the 
people who did the Waco hearings, the Chinagate, who hired 
Craig Livingstone, where were the FBI files, and it is one of 
the only committees that has actually prosecuted people for 
perjury. So tell the truth today. [Laughter.]
    We are actually not going to do that. So if each of the 
witnesses would stand and raise your right hands. Just the 
first panel. We will do it one panel at a time.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that both the witnesses 
responded in the affirmative.
    I appreciate that you battled through the snow yesterday to 
come in from Washington, Mr. Burns, and up from Indianapolis, 
Mr. McClintock, and we appreciate that you can help give us a 
national perspective on this. And we will start with Mr. Burns, 
who has been a leader for quite awhile over in the National 
Drug Control Policy Office. He travels all over the country 
meeting with different locations, with leaders and particularly 
on our borders and our HIDTAs, and we appreciate you coming 
today.

STATEMENTS OF SCOTT BURNS, DEPUTY DIRECTOR FOR STATE AND LOCAL 
  AFFAIRS, OFFICE OF NATIONAL DRUG CONTROL POLICY; AND ARMAND 
 MCCLINTOCK, ASSISTANT SPECIAL AGENT IN CHARGE, INDIANAPOLIS, 
      IN, DISTRICT OFFICE, DRUG ENFORCEMENT ADMINISTRATION

    Mr. Burns. Thank you, Chairman Souder, Congressman Chocola, 
and distinguished staff members of the subcommittee. I want to 
thank you for the opportunity to testify about the use, 
trafficking and production of methamphetamine in America. I 
intend to keep my verbal testimony relatively brief and I would 
ask that the written statement I prepared be entered into the 
record.
    Mr. Souder. So ordered.
    Mr. Burns. Thank you.
    I would also like to thank you, Mr. Chairman, for your 
leadership in Congress, not only dealing with these issues on a 
national and international basis, counter-narcotics issues, but 
for your strong voice for rural America. I would also like to 
thank you, Congressman Chocola, for your strong leadership and 
support of counter-narcotics issues in Washington.
    You talked about slushing through the snow, I am especially 
glad to be here with you today in Indiana, part of the 
heartland of this Nation. Before going to the White House and 
before going to Washington, I was a prosecutor elected in my 
hometown of Cedar City, UT in Iron County, about the size of 
Cass County, where I served for 16 years. And methamphetamine 
hit, as you know, the western part of the United States in the 
mid and late 1980's and I have been dealing with this issue for 
some time.
    Like my fellow prosecutors and law enforcement officers 
here in Indiana, I have seen first-hand the damage that 
methamphetamine labs cause to a community. And like my fellow 
prosecutors here today, Curtis Hill and Kevin Enyeart, I have 
worked with officers through the night processing meth labs and 
gathering evidence and left them to wait hours for a meth 
cleanup company to arrive, taking its toll on overtime and 
precious budget dollars. And like my fellow prosecutors and law 
enforcement officers here in Indiana, I have seen the 
destruction and toll methamphetamine takes on lives and 
children and families.
    And like many here today, Mr. Chairman and Congressman 
Chocola, I have struggled to come up with a strategy and 
commensurate funding to deal with this drug in a rural setting.
    I think it is important initially to recognize that 
methamphetamine poses a different sort of threat than 
marijuana, cocaine or heroin. On the one hand, nationwide, use 
of methamphetamine in America is still much lower than 
marijuana and cocaine, and just as heroin seems to be a more 
significant threat in some regions, for example the northeast, 
in other parts of the Nation, we know that methamphetamine has 
struck particularly hard in not only the west and midwest part 
of our Nation, but in rural areas.
    As we seek to disrupt the market for methamphetamine, it is 
instructive to look at where it is coming from. As you have 
stated, Mr. Chairman, we know on a national basis that the 
small labs, by sheer number, are the greatest, which usually 
produce the smaller amounts of methamphetamine. At least 80 
percent--our numbers at the White House--of methamphetamine 
circulating in America is a product of the superlabs that you 
have seen first-hand, defined as a lab capable of producing 
more than 10 pounds of methamphetamine in a production cycle. 
Some of these labs are found within our borders, some outside, 
especially in Mexico, but they constitute the most serious 
production threat for America.
    Our Federal enforcement efforts are focused on coordinating 
intelligence and enforcement efforts to take down the largest 
methamphetamine labs. At the same time, the smaller labs pose a 
serious threat to the environment as well as to the most 
innocent of our society, our children.
    Where methamphetamine labs exist, children who live in or 
near them have been found with serious and life-threatening 
burns and other serious health risks by exposure to the 
chemicals. In response to this problem, the Bush administration 
is proud to have done several things to initiate and buildupon 
the DEC, or Drug-Endangered Children Program, which we are 
underway trying to take nationwide. Treatment and early 
intervention programs to include drug court and treatment 
facilities, specifically designed to deal with methamphetamine. 
The National Methamphetamine Chemical Initiative that is 
working on a national and international basis to bring together 
the women and men in the field that are actually working 
methamphetamine cases. They discuss trends, best practices, how 
to stop the flow of precursors into the United States, and all 
other issues specifically relevant to methamphetamine. It is an 
initiative funded through the High Intensity Drug Trafficking 
Area and it is an attempt to bring the men and women that are 
actually working on methamphetamine cases together semi-
annually.
    Mr. Chairman, Congressman Chocola, the HIDTA program, which 
has several hundred initiatives, has 300 specifically aimed at 
methamphetamine. That is, initiatives directly dealing with 
this issue, and that is more than any other drug.
    And while there are additional and important efforts by 
DEA, which Mr. McClintock I am sure will address and OCDETF and 
U.S. Attorneys and others on the Federal level, I do not need 
to tell you that 94 percent of law enforcement in this country 
is State and local, 98 percent of all drug cases in this 
country are prosecuted by State and local prosecutors. So it is 
not an issue that the Federal Government alone can have 
success.
    I applaud you for bringing this hearing to an area 
representing hundreds of towns and cities and counties that are 
dealing with the problem of methamphetamine as we speak. Again, 
I thank you for the opportunity to appear before you in my 
current capacity with the Bush administration and I am happy to 
answer any questions you may have about our anti-
methamphetamine efforts, both in major cities and more 
important today, in America's heartland.
    Thank you.
    Mr. Souder. Thank you.
    Mr. McClintock runs the Indianapolis office of DEA. We are 
thrilled to have an outpost in Fort Wayne as well as Evansville 
now in Indiana and we hope it will continue to expand. Having 
those types of posts has enabled us to find not just how to 
pick up the daily user that we see and the small time guys, but 
we are able to trace this back to get the bigger organizations 
and the DEA has been a tremendous help in Indiana in doing 
that.
    [The prepared statement of Mr. Burns follows:]

    [GRAPHIC] [TIFF OMITTED] T5267.001
    
    [GRAPHIC] [TIFF OMITTED] T5267.002
    
    [GRAPHIC] [TIFF OMITTED] T5267.003
    
    [GRAPHIC] [TIFF OMITTED] T5267.004
    
    [GRAPHIC] [TIFF OMITTED] T5267.005
    
    [GRAPHIC] [TIFF OMITTED] T5267.006
    
    [GRAPHIC] [TIFF OMITTED] T5267.007
    
    [GRAPHIC] [TIFF OMITTED] T5267.008
    
    [GRAPHIC] [TIFF OMITTED] T5267.009
    
    [GRAPHIC] [TIFF OMITTED] T5267.010
    
    Mr. McClintock. Thank you. Good morning, Chairman Souder 
and Representative Chocola, my name is Armand McClintock and I 
am assistant special agent in charge of the Indianapolis 
District Office of the DEA.
    First, let me express my sincere appreciation for your 
ongoing support and for this hearing on fighting 
methamphetamine in the heartland.
    Mr. Chairman, the rapid rise and spread of methamphetamine 
use and trafficking in Indiana has created a unique and 
difficult challenge for Federal and State law enforcement 
officials. Unlike more traditional drugs of abuse, 
methamphetamine presents some distinctive challenges.
    First, it is relatively easy to manufacture, anyone who can 
read and measure can make methamphetamine.
    Second, many productionsites are located in the rural areas 
of Indiana where there is limited day-to-day law enforcement 
presence.
    Third, methamphetamine is a particularly intense stimulant, 
highly addictive and devastatingly dangerous.
    The combination of these factors has led DEA to pursue a 
multi-faceted response. Overall, DEA offices in Indiana expend 
approximately half their investigative resources on 
methamphetamine-related cases, a substantial increase since 
1999 when approximately 35 percent of cases were 
methamphetamine-related.
    These investigations target Mexican trafficking 
organizations while working closely with State and local law 
enforcement to eliminate the spread of small toxic labs and 
alleviate their consequences.
    DEA investigations into Mexican drug trafficking 
organizations distributing methamphetamine within the State 
have more than doubled since 2001, totaling 36 last year. In 
addition, the number of methamphetamine traffickers and dealers 
who have been arrested and charged in Federal court, has grown 
from 80 in 2001 to 111 in 2003.
    While more labs were seized in Indiana during 2003, the El 
Paso Intelligence Center [EPIC], has documented 506 clandestine 
methamphetamine laboratory seizures, which is sixth among all 
States. Adding dump sites, chemicals, glassware, and equipment 
seizures together resulted in 805 incidents, fifth among all 
States.
    In response to the rise of these labs, in 2000, DEA 
launched a new training initiative to provide clandestine 
laboratory awareness training to Federal, State and local law 
enforcement agencies and fire departments. The demand for 
clandestine laboratory training has been immense. DEA has 
provided clan lab methamphetamine awareness training for 540 
State and local officers in the State of Indiana since 2000.
    The small toxic labs I describe in my testimony generate 
significant quantities of hazardous waste during each 
production cycle. Small rural communities within Indiana 
ultimately must pay the price of the fiscal, environmental, 
health, and safety hazards associated with these drug 
trafficking organizations.
    The methamphetamine trade is particularly insidious because 
of its direct, alarming, and negative impact on our youth. 
Federal and State law enforcement officials remain vigilant in 
our efforts to keep youth in Indiana and across the country 
from the devastating effects of this drug. Each of DEA's field 
divisions has a victim witness coordinator to ensure that 
endangered children are identified and the child's immediate 
safety is addressed at the scene through coordination with 
child welfare and healthcare service providers.
    DEA has joined forces with our State and local partners to 
address methamphetamine-related trends from large trafficking 
organizations down to the small time producer operating out of 
their homes in Indiana. Placing emphasis on DEA's priority 
target program, eliminating small toxic labs, combining Federal 
regulations with local initiatives to reduce the availability 
of pseudoephedrine in the illicit market, and enforcing our 
chemical controls on meth precursors all represent DEA's 
intense focus on combating this epidemic on several fronts.
    To see an example of our efforts with local law 
enforcement, you need only look back to last December when DEA 
and approximately 90 local law enforcement officers concluded 
Operation Sweet Home Alabama. This was a 6-month investigation, 
which resulted in the arrest of 18 defendants. The priority 
target involved a Mexican national who oversaw the largest 
methamphetamine, cocaine and marijuana ring ever exposed in 
Indiana. Just last week, a Federal judge sentenced the head of 
the organization, Ramon Montero to 20 years in prison.
    In conclusion, the seriousness of the problems resulting 
from the methamphetamine threat cannot be overstated. Perhaps 
more than any other drug, methamphetamine puts all of us, users 
and non-users alike, at risk. The innocence of children, the 
fortitude of law enforcement, and the pristine state of our 
ecosystem are not immune to methamphetamine's dangers. As a 
single-mission agency, DEA will continue to devote its 
resources to identify, investigate, and dismantle the 
organizations responsible for the spread of meth across Indiana 
and our country.
    Thank you again for the opportunity to testify before the 
subcommittee today. I will be happy to answer any questions at 
the appropriate time.
    [The prepared statement of Mr. McClintock follows:]

    [GRAPHIC] [TIFF OMITTED] T5267.011
    
    [GRAPHIC] [TIFF OMITTED] T5267.012
    
    [GRAPHIC] [TIFF OMITTED] T5267.013
    
    [GRAPHIC] [TIFF OMITTED] T5267.014
    
    [GRAPHIC] [TIFF OMITTED] T5267.015
    
    [GRAPHIC] [TIFF OMITTED] T5267.016
    
    [GRAPHIC] [TIFF OMITTED] T5267.017
    
    Mr. Souder. Thank you. All statements, the full statements, 
will be in the record. There were a couple of things I noticed 
in your written statement that I think it would be good to 
highlight for purposes of discussion today.
    You said that DEA, in your written testimony, devotes half 
of its Indiana investigative resources to meth?
    Mr. McClintock. Yes.
    Mr. Souder. Is most of that southern Indiana, a mix, Fort 
Wayne office too?
    Mr. McClintock. It's a mix of all areas of Indiana, 
Congressman; largely Indianapolis, being the largest DEA 
office, has had a role in each of these. Fort Wayne and 
Merrillville, Evansville, the entire State.
    Mr. Souder. Did you say that Evansville is devoting a 
higher percentage to meth?
    Mr. McClintock. Yes, sir, I would.
    Mr. Souder. We will hear more about that, but while we have 
a big problem in northern Indiana, in southern Indiana, it is 
the dominant problem, is that correct?
    Mr. McClintock. Yes, it is, Congressman.
    Mr. Souder. You also said that you have dismantled 61 and 
disrupted 35 priority target methamphetamine trafficking 
organizations throughout the United States. And I wanted to ask 
both you and Mr. Burns about, in particular, the precursor 
chemical. I have been very active in working with the 
Canadians. That is where there is a big problem with precursor 
chemicals coming from. Do you believe their new regulations in 
progress are sufficient or should we be pushing them in this 
next session of their Parliament to even tighten up further?
    Mr. Burns. At this point, Congressman, I would say wholly 
insufficient.
    Mr. Souder. Wholly insufficient?
    Mr. Burns. Through the National Methamphetamine Chemical 
Initiative, we held our last conference in Ottawa and we did 
that, frankly, at the request of law enforcement and others, to 
bring a message to help Canada, that they must do more, they 
must do a great deal more.
    Law enforcement still does not know the quantities that are 
coming in and have difficulty tracking and identifying where 
the ephedrine and pseudo-ephedrine is going. So we need your 
help.
    Mr. McClintock. I think a representative example of the 
problem is in September 2001, the Indiana State Police stopped 
a Ryder truck on Interstate 69 just north of Indianapolis for a 
traffic violation. A consensual search of the truck revealed 
1,200,000 tablets of pseudoephedrine. The driver and his 
passenger, both of Middle Eastern descent, had crossed the 
Windsor bridge and came down I-69 to I-70 and initially headed 
toward California. Unfortunately, the terrorist attack of 
September 11 happened at that moment and they changed 
directions, frightful of what awaited them in this country and 
they turned around and headed back to Canada through Detroit, 
hopefully, is what their plan was but they were stopped by the 
Indiana State Police. With their tablets of pseudoephedrine, 
you are looking at about 82 loads of methamphetamine if it got 
to a clan lab.
    Mr. Souder. There were two other cases that have been in 
the media, and I do not know how much you can talk about it, 
both in Detroit and Chicago, where there were suspected ties to 
some of these different groups, some may have been just 
profiteering, some may have been connected to some of the 
terrorist groups. Do you know of other cases that the Indiana 
DEA has worked with, Mr. Burns, in looking at that particular 
area coming out of Detroit crossing into Canada?
    Mr. Burns. I do not know of any others at this time, 
Congressman. I can research that if you like and get back in 
written form to the subcommittee.
    Mr. Souder. It is important to understand anhydrous ammonia 
is a critical thing that we will be dealing with later in this 
hearing this morning, but I am trying to understand the 
pressures that we have here. The multiple pressures for job 
creation and how we control narcotics and how we deal with 
terrorist funding. What is clear is that these things are 
colliding at the Windsor Bridge, and that is the bridge, it is 
the largest trade bridge in the world. More trade goes over 
that bridge than all the United States does with Japan, for 
example. And that bridge is the choke point for much of our 
economic development in northeast Indiana. For example, the GM 
plant in Fort Wayne, there are 100 border crossings at that 
bridge in the making of each pickup. So we are constantly kind 
of doing this battle of how much checking should we do at that 
border, how much do we slow down the border, but what we need 
to understand is these little meth labs that we are picking up 
are getting these precursor chemicals because this stuff is 
coming through in large illegal quantities. Now some of them 
rob, like the Oxycontin robberies, but much of this is coming 
through this type of network.
    You also mentioned in your testimony that it is about $90 
to $100 a gram, $500 to $1,200 per ounce, $5,000 to $8,000 a 
pound at a purity level of 24.8 percent. That is the Indiana 
figure.
    Mr. Burns, do you know, or Mr. McClintock, how that 
compares to nationally? If you were buying this stuff in 
California or Washington State or Texas where it is moving 
through closer to where the labs are, is the price going up as 
it comes to Indiana?
    Mr. McClintock. The price increases as it comes eastward 
and the purity. We have had purity all the way up to actually 
100 percent. Our DEA laboratory in Chicago has analyzed 
numerous samples of methamphetamine ranging from 24 percent all 
the way up to 100 percent. It just depends on how much cut the 
distributors put on it here in this State. The purity was 
higher, 2 or 3 years ago. It has dropped a little bit because 
they are cutting it with more adulterants in an attempt to 
stretch the amount of methamphetamine and increase their bottom 
line, so to speak.
    Mr. Souder. Is the purity from the self-cookers higher than 
the purity from the superlabs?
    Mr. McClintock. The superlab purity has been 70 to 90 
percent pure, sometimes 100 percent.
    Mr. Souder. So it is the reverse. So the stuff coming in 
from outside is actually more dangerous to the individuals in 
the purity sense than the stuff that is being locally cooked.
    Mr. McClintock. That is correct. The local cooks are just 
cutting it more with adulterants.
    Mr. Souder. So they are buying the large stuff and then 
breaking it up.
    Mr. McClintock. Yes, sir.
    Mr. Burns. A good rule of thumb, Mr. Chairman, at the White 
House, we look at it as a business. They produce and 
manufacture, they have transportation routes, they have 
wholesale and retail distribution and then they have the 
financial aspects associated with this illegal business that we 
call methamphetamine trafficking. A good rule of thumb is the 
further away from where it is manufactured in the Central 
Valley of California, that comes across from Mexico, the higher 
the price.
    Mr. Souder. Higher the price, less the purity.
    Mr. Burns. Correct.
    Mr. Souder. Mr. Chocola.
    Mr. Chocola. Just briefly.
    Mr. Burns, did I understand you that 80 percent of the 
methamphetamine used comes from the superlabs versus the local 
labs?
    Mr. Burns. Yes.
    Mr. Chocola. And is that a trend that is steady or is it 
changing?
    Mr. Burns. That is pretty steady. I mean the difficulty 
with this issue is the mass quantities come from Mexico and 
Central Valley, CA, but the number of actual labs of small 
amounts in the back of a car or a Motel 6 clearly are within 
the midwest. So as far as quantity, superlabs; as far as the 
number of actual lab sites, midwest.
    Mr. Chocola. Is that similar to the experience in Indiana?
    Mr. McClintock. Yes, Congressman.
    Mr. Chocola. Mr. Burns, you mentioned several initiatives 
the administration has engaged in. How do those interact and 
interface with local law enforcement?
    Mr. Burns. Well, for example, the National Methamphetamine 
Chemical Initiative is an attempt to bring the real people that 
actually work methamphetamine cases together at least two or 
three times a year. And we fund that. Officers say have you 
seen a green meth? No, I haven't. I just talked with a 
detective up in Minnesota that saw some green meth. What do you 
think that's about? They talk about common cases that they are 
working on to try and put together trends and the ability to go 
after them on a nationwide basis.
    The Drug Endangered Children Program helps State and local 
law enforcement because prosecutors like me 15-20 years ago 
would come across a methamphetamine lab and the last thing we 
were worried about was the two or three children that were 
there. We would find a neighbor or a friend or just get them 
out of the way. We have now come to realize that the most 
important thing at that meth lab site are those two or three 
children. And so the Drug Endangered Children Program brings 
together law enforcement and a child protective person, usually 
a guardian ad litem. Children are taken to a medical facility 
and they are checked for toxicity or burns. The juvenile court 
will be brought in to find a safe placement for the child. And 
many States are passing laws that make it a felony, similar to 
child abuse. So we are trying to take that program nationwide, 
we initiated that in Iowa about 6 months ago.
    Mr. Chocola. A lot of the articles I have read, a lot of 
these labs are detected by the odor when they are actually 
cooking. Being exposed to that odor, is that hazardous to 
anybody's health, like children, if they are around it? Does it 
just smell bad or is it harmful?
    Mr. McClintock. Both, Congressman.
    Having started my DEA career in San Diego, California in 
1983 and having worked in a clan lab group as a young agent 
before we used any protective gear or breathing apparatus, not 
only do they smell badly. They are harmful to everyone's health 
and the environment.
    Mr. Chocola. I need to go way out on a limb here and make 
the prediction that all these programs you are talking about 
are not over-funded?
    Mr. Burns. No.
    Mr. Chocola. There are obviously limited resources. Where 
are the most effective kind of focus of resources? Is it the 
precursor stage or the cooking stage or the distribution stage 
or is it the user stage? If you had to pick a point in the 
process to focus the most resources, where would it be?
    Mr. McClintock. I would say, Congressman, all the above, 
but the precursor availability is certainly the first place to 
start. If they do not have the ingredients, they cannot make 
the drug. We need education, we need awareness training, 
especially for our youth in school, about the dangers of the 
drug and drug abuse in general. We need a concentrated law 
enforcement effort combined with State and local help with the 
Federal Government to alleviate these Mexican drug trafficking 
organizations and all these small toxic labs.
    Mr. Chocola. Where do the precursors come from? I mean 
locally it seems that they are stolen from the local drugstore 
or they try to buy large quantities. Are there programs with 
retailers to try to make them aware? Are they aware and do they 
have programs in place to try to prevent precursor purchases?
    Mr. McClintock. Absolutely, Congressman, there are programs 
in place with retailers that limit their ability to sell 
pseudoephedrine, for instance, which is a common ingredient in 
cold medicines, which is an over-the-counter drug found in all 
drugstores and places like that. And a lot of times, there is a 
form that has to be filled out and people have to give 
identification, which drug traffickers do not want to do, to 
buy over I believe 9 grams of that.
    Mr. Chocola. Do you think that is being effective?
    Mr. McClintock. I think it is. However, I think it is again 
education of all the public who is involved in retailed sales 
to know about it. We get calls occasionally in that regard.
    Mr. Chocola. Do the superlabs get the precursors the same 
way as somebody out in a trailer somewhere in a field, just 
larger quantities, or do they have sources for pseudoephedrine 
that's different?
    Mr. Burns. It's in truckloads in the back of tractor-
trailers over the border from Canada and up from Mexico, and to 
buildupon Mr. McClintock's response, if we could have better 
successes in Canada and Mexico, I think it would be extremely 
effective. If they do not have the flour, they cannot bake the 
cake.
    With respect to those States and jurisdictions that have 
had success, it has to be prevention and education, it has to 
be treatment and it has to be law enforcement. The communities 
that I have seen that have successfully dealt with 
methamphetamine are when everybody gets involved. When big box 
stores, retail stores, know that somebody is buying tubing and 
glassware and tincture of iodine, they give a call to local law 
enforcement. If somebody knows that a methamphetamine lab 
smells like cat urine. If they are educated, if they smell that 
when they are walking to the store, to school or in any 
setting, and call law enforcement. And when the message goes 
out in the community that this is dangerous to our children, 
this is dangerous to our citizens, you are polluting our rivers 
and we are not going to take it. You are not wanted here. That 
is when we have seen serious declines in methamphetamine 
production, distribution and use.
    Mr. Chocola. Thank you both.
    Mr. Souder. Thank you. I want to do a few followup 
questions.
    Could you describe a little bit, either of you, why this 
started in Central California and how its progression is 
moving. And Mr. McClintock, for the record, actually was with 
DEA in San Jose as well as down in San Diego.
    Mr. McClintock. The close proximity to the international 
border and the port of entry at San Ysidro being the busiest 
land border crossing in the world made it a readily accessible 
entry point for any Colombian organization utilizing Mexican 
nationals to work in the area of being a transshipper, to bring 
it through Mexico and into the United States through California 
or Texas or any border State. The epidemic of methamphetamine 
has worked its way eastward. The original drugs that started 
coming across the border were marijuana, heroin and cocaine. 
These are poly drug Mexican drug trafficking organizations that 
added methamphetamine when they realized that there was a 
demand here. They are entrepreneurs and in it comes and it 
traverses our great country.
    Mr. Souder. In the pattern that you are describing, let me 
ask one other question as a followup. In this network of how 
the small labs get their precursor chemicals, and I know there 
are lots of different ways that they do it in Indiana, are 
there middlemen where they know there is somebody receptive 
where they know they can buy the precursor chemicals?
    Mr. McClintock. Absolutely.
    Mr. Souder. So there is like a wholesale dealer that you 
kind of know, a friendly drugstore that you know. Penetration 
with the pharmacies is one of the problems we had a number of 
years ago that was raised to me in Noble County. So you would 
know that this guy will sell you a larger quantity of this than 
other places or is it like an undercover guy who says hey, I 
have a load in my car? How exactly does that work?
    Mr. McClintock. Congressman, it can be either of those 
situations. With the Internet today and communication via the 
Internet, it is not uncommon for people to even share their 
suppliers for these precursors over the Internet, as well as 
formulas to make methamphetamine. They explain on the Internet 
quite readily how methamphetamine can be made and a variety of 
methods and if a precursor chemical cannot be found that you 
need, you have other things that are common household chemicals 
that you can buy and make a different--hydriodic acid, for 
instance, or any chemical that you need. There is a lot of 
networking going on.
    Mr. Souder. You have described two different things. One of 
which is, I am going to ask you how it came from California 
across, it was a poly drug, Mexican-Colombia connection coming 
in and then moving gradually, adding this to their market mix 
as they developed the market. But we also have the Middle 
Eastern groups bringing in these huge quantities of precursor 
chemicals from Canada and we are concerned about Canada.
    How do these two things fit together? Are Canada's laws lax 
enough that they are bringing them in and then hooking up with 
the Mexican networks in the United States? Or are they 
supplying two different things; the precursor chemicals 
supplying the small labs and the superlab stuff being sold in 
the street through a different network?
    Mr. McClintock. The large quantities of precursor drugs are 
going directly to the Mexican drug trafficking organizations in 
large quantities for the superlabs.
    Mr. Souder. I hesitate because this is not good news, 
because one of the things we have been watching is if the 
Middle Eastern networks hook up with the Mexican network, all 
of a sudden, the south border becomes a more complex question 
in regards to terrorism as well as other things in the deal. We 
do not have a lot of information, these groups have hooked up 
before and if this is the way they start to hook, we have 
deeper problems in our country in addition to the narcotics.
    One other question, Mr. McClintock, for you. On the west 
coast, there is a new form of meth called yabba. Have you seen 
that from southeast Asia, has that been in Indiana yet?
    Mr. McClintock. It has not been to Indiana yet, that I know 
of.
    Mr. Souder. One other question for you, Mr. McClintock, and 
then I have a few more for Mr. Burns. A lot of meth trafficking 
used to be with bike gangs like Hell's Angels, much like Tibet 
gold and some of the high grade marijuana coming from the 
eastern side of Canada is done through motorcycle gangs 
bringing it in. Some of the busts in this district in a number 
of counties over in the northeast side have been with 
motorcycle gangs. Do you still see that in meth or is that a 
change?
    Mr. McClintock. We still see it in methamphetamine. 
Recently, DEA and our State and local counterparts in Vigo 
County worked a large methamphetamine organization headed by 
the former president of the Diablo's motorcycle gang. We 
dismantled that organization. Now the Sons of Silence and the 
Outlaw motorcycle gangs are still in the State and 
participating in methamphetamine trafficking, but not to the 
extent that they did years ago when they dominated the market.
    Mr. Souder. Mr. Burns, one of the things that you mentioned 
was the HIDTA program which, for people who do not know the 
initials, is High Intensity Drug Trafficking Area, and the only 
one in Indiana is up in Lake County, correct?
    Mr. Burns. Right.
    Mr. Souder. So we have Chicago with a HIDTA and Lake County 
with a HIDTA, but the rest of Indiana not really being in a 
HIDTA at this point. But do you agree that one of the 
priorities of HIDTA should be to focus on the large labs? How 
do you see that being directed to the smaller labs? How do you 
see the HIDTA program working with the meth problem in 
particular?
    Mr. Burns. I would agree with you, Congressman, in that the 
intent of the High Intensity Drug Trafficking Area program is 
to attack the problem on an international and a national basis. 
And as such, a great deal of our focus and from your oversight 
has been to go after the large precursor transactions, go after 
the superlabs. We have sent additional moneys, we have sent 
additional technical assistance and frankly, I think we are 
having success. Notwithstanding the attitude in Canada, the law 
enforcement effort along the borders and in California as we 
speak I think is fluid. I think that there is a great debate 
going on among and by and between those in the trenches with 
respect to whether now we have shifted that to Mexico.
    Mr. Souder. In the evolution of how we look at HIDTA 
programs, it seems like more of those HIDTA programs are 
becoming almost statewide programs, as they move into that. As 
you look, and not necessarily answering this question now, but 
as I look at how we deal with Indiana, we are trying to keep a 
proliferation of HIDTAs everywhere.
    Mr. Burns. Yes.
    Mr. Souder. In our new draft legislation, we said OK, here 
are the highest areas that should get this much money, the 
second tier, the third tier. But in that, to be able to access 
into the information in Fort Wayne, South Bend, Evansville, 
Indianapolis with a HIDTA, any suggestions you would have of 
how to do this, and what the pros and cons of that would be, 
would be helpful.
    Mr. Burns. And I think that it is the responsibility of the 
White House and the Office of National Drug Control Policy, and 
I know John Walters, the drug czar, when he directed me to come 
out here made it clear that we do not just operate under a 
HIDTA. It is my intent to send folks back here to Indiana and 
we are going to have a series of meetings with State and local 
law enforcement and treatment people. I intend to come back 
again if I can, and we are going to provide assistance through 
the office but not necessarily, as you say, making every area 
in every State a HIDTA.
    Mr. Souder. I appreciate that. As we were talking and have 
been working with this hearing, Director Walters had called and 
made that offer to northern Indiana, because we still need 
assistance even if we do not set up a HIDTA. And to come in 
today as the star of this program to work with our State and 
local law enforcement, to get interconnected, we appreciate 
that.
    One other area we have in the President's new initiative on 
drug treatment. Do you know of anything, and have you heard any 
discussions whether any of this is going to be meth treatment 
oriented specific? It is an area, because the larger cities, 
including even in Indiana, the larger cities of Fort Wayne, 
South Bend, Indianapolis are as likely to have a meth problem 
as the smaller towns, but drug treatment funding tends to be 
oriented on treatment, research and treatment related to other 
types of narcotics. Do you know whether there will be anything?
    Mr. Burns. Are you talking about the 100 million Access to 
Recovery?
    Mr. Souder. Yes.
    Mr. Burns. The intent of that--the numbers that we have, 
there is a treatment gap of about 3 or 4 million people in this 
country. We identified in 2003 about 100,000 people who woke up 
one morning and made that incredible commitment to get 
treatment and could not. In America, that is not right. If 
100,000 people wanted treatment and could not get it, the 
President's initiative, Access to Recovery to spend $200 
million a year over 3 years, $600 million, to at least help 
those that have made the commitment to seek treatment from the 
disease of addiction. We got half of it.
    That will be administered through the States and that will 
be something that the State of Indiana can have the greatest 
impact on where it goes and I would assume a great deal of it 
would go to treat those that are dealing with this terrible 
drug, methamphetamine.
    Mr. Souder. Well, we are going to explore this a little 
later on one of our panels, but one of the things I want the 
drug czar's office to look at, because in working with HHS, and 
Charlie Curry is from Indiana, who heads the substance, 
alcohol, mental health area, but sometimes different drugs have 
different impacts and require different types of treatment. And 
if we do not have accurate information on how best to deal with 
those types of addicts, and each State is too small a unit of 
dollars to actually do the distinction between the different 
types of things, and particularly do the research with it, we 
need to look at the Federal level of how best to set this up or 
say to the States, OK, for meth people, this is the type of 
thing you need. It may not be able to be farmed out over the 
whole State, it is a different type of a treatment center than 
say treating somebody who is addicted to marijuana or cocaine.
    Mr. Burns. I would love to have those discussions with you. 
Spent all day yesterday in Tulsa, OK where they are wrestling 
with that very question you raise.
    Mr. Souder. Thank you. Do you have anything additional?
    Mr. Chocola. I just have one more quick question. I 
understand that there are Web sites on line that will go 
through step-by-step process of how to manufacture 
methamphetamine?
    Mr. McClintock. That is true.
    Mr. Chocola. Is there anything that Federal officials can 
do about that? Is it illegal to do that or is there nothing we 
can do?
    Mr. Burns. Well, at the White House, we have set up a 
subcommittee, we have the FTC involved and DEA and others, in 
addition to the illegal prescription drug popups and Internet 
ads, we also go after those. We have had great success. The 
DEA, whenever they do something good, we take credit, with the 
paraphernalia.
    Mr. Souder. That is on the record, by the way. [Laughter.]
    Mr. Burns. The paraphernalia cases in the United States, 
and we are looking at trying to do something with the Internet 
as well.
    Mr. Chocola. Are they abundant, those Web sites? Are they 
part of the problem? I would assume they are, but are they part 
of the problem?
    Mr. McClintock. Yes, sir.
    Mr. Chocola. But there is no program to try to actually get 
them shut down, or are you working on it?
    Mr. Burns. As soon as you shut one down, as I understand 
it, they can switch to a different site. But there is an effort 
underway in our office in conjunction with going after the 
prescription ads to work with the FTC to see if we cannot come 
up with a way to deal with that.
    Mr. Chocola. Thank you.
    Mr. Souder. But you also, if you have any suggestions of 
international coordination that we can work with the U.N. 
Office of Narcotics, we have in this year's parliamentary 
group, we have people who work on narcotics committees all over 
the world are getting together and it is going to be down in 
Miami in late May, and it is coordinated by the U.N. narcotics 
control people and we are the hosts this year.
    But one of the problems on the Internet is it does not even 
have to be a U.S. source, so U.S. laws may not cover it. And if 
we crack down, how do we do that. We need to try to figure out 
how to address this question from an international perspective 
because if we do not have the different countries working with 
us, they just pop right over to Canada or somewhere else.
    I thank each of you for coming. We will probably give you 
some additional written questions for the record.
    Mr. Chocola. Thank you very much.
    Mr. Souder. If the second panel could now come forward. 
That would be Mr. Melvin Carraway, superintendent of the 
Indiana State Police; Mr. Curtis T. Hill, Jr., prosecuting 
attorney, Elkhart County Prosecuting Attorney's Office; Mr. 
Bill Wargo, chief investigator for the Elkhart County 
Prosecuting Attorney's Office; Detective Daniel Anderson of the 
Starke County Sheriff's Department; Corporal Tony Ciriello, 
Kosciusko County Sheriff's Department.
    If you will stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    We will start with Mr. Melvin Carraway, superintendent of 
the Indiana State Police. Thank you for coming up today.

 STATEMENTS OF MELVIN CARRAWAY, SUPERINTENDENT, INDIANA STATE 
  POLICE; CURTIS T. HILL, JR., PROSECUTING ATTORNEY, ELKHART 
    COUNTY PROSECUTING ATTORNEY'S OFFICE; BILL WARGO, CHIEF 
  INVESTIGATOR, ELKHART COUNTY PROSECUTING ATTORNEY'S OFFICE; 
 DANIEL ANDERSON, STARKE COUNTY SHERIFF'S DEPARTMENT; AND TONY 
        CIRIELLO, KOSCIUSKO COUNTY SHERIFF'S DEPARTMENT

    Mr. Carraway. Thank you, Mr. Chairman. Thank you, Mr. 
Chocola as well for this opportunity to address you this 
morning on the issue of methamphetamine in Indiana.
    With me also today is Major Mike Mettler, who is the 
commander of our Laboratory Services Division as well.
    Methamphetamine, the highly potent, dangerously addictive, 
controlled substance is spreading as an epidemic in the State 
of Indiana to the extent that it threatens to disrupt and 
destabilize various governmental programs and services. Law 
enforcement, health care programs, the courts, corrections and 
child protection agencies are all suffering from the effects of 
the spread of this drug and the associated kitchens of death; 
clandestine laboratory operations.
    Methamphetamine and meth labs were first identified in 
southern Indiana in 1988. Realizing that this poison had 
finally reached the State, a drug lab investigation team was 
formed by the Indiana State Police. Responding at that time to 
only three drug labs in 1994, the number of labs processed has 
nearly doubled every year since. In 2003, 1,260 meth labs were 
identified in this State.
    An equally disturbing trend is the significant increase in 
the number of meth case submissions to our State Police 
Laboratory facilities. In 1994, State Police reported receiving 
only 401 methamphetamine case submissions; 8 years later, the 
number of submissions has skyrocketed to nearly 2,800 
submissions. In 2002, the number of meth submissions exceeded, 
for the first time, the number of powdered cocaine submissions.
    Demand for this drug is increasing at an alarming rate, as 
is evidenced by the recent seizures and convictions of local 
meth traffickers that you have heard before my testimony. 
However, in a recent investigation in Indiana, 25 individuals 
were arrested and were alleged to have distributed more than 
100 pounds of meth a month. This prompted U.S. Attorney Susan 
Brooks to state, ``I think this shows we have an incredible 
demand here in Indiana.'' In another investigation, it was 
established that another organization had distributed 
approximately 1,600 pounds of meth over the course of just 2 
years. Realizing that clandestine laboratory operators or cooks 
generally arise from the user population, as user populations 
increase a proportionate increase in drug lab activity is also 
to be expected.
    In the spring of 2002, the Indiana State Police and the 
Indiana Criminal Justice Institute co-hosted the first 
statewide Summit on Methamphetamine. Bringing together law 
enforcement agencies, health care workers, judges, prosecutors, 
probation officers and representatives from children and family 
services, discussions were held to assess the impact meth was 
having on these vital services. The findings were clear. Meth 
threatens to disrupt and destabilize all of the governmental 
respondents' ability to provide their conventionally mandated 
services by inundating these agencies with methamphetamine 
related issues.
    Law enforcement agencies throughout Indiana have responded 
by increasing and directing enforcement activities focused on 
methamphetamine. In 2003, more than 950 individuals were 
arrested on charges related to illegal drug lab operations. 
Nearly 200 children have been removed from parents who create 
these chemically toxic home environments. For example, in 2002, 
110 children were removed from 57 families in Knox County, IN 
and 48 children were removed from families in Vigo County due 
to methamphetamine offenses. Foster case expenses in Vigo 
County, IN have amounted to $250,000 to $300,000 in 2002.
    House bill No. 1136 has been introduced in the Indiana 
General Assembly. The purpose of this bill, if enacted, will be 
to establish a Methamphetamine Abuse Task Force. The goal of 
the task force will be to develop and update a coordinated 
strategic plan to combat methamphetamine and to protect the 
citizens of Indiana.
    We are certain by bringing together these combined forces 
of Federal, State and local law enforcement, our strategic aim 
shall be to reduce the availability of methamphetamine at its 
two sources. Illegal foreign importation and domestic 
clandestine laboratory operations. Our goal is to rid the State 
of this threat.
    Thank you, Mr. Chairman, for this opportunity.
    [The prepared statement of Mr. Carraway follows:]

    [GRAPHIC] [TIFF OMITTED] T5267.018
    
    [GRAPHIC] [TIFF OMITTED] T5267.019
    
    [GRAPHIC] [TIFF OMITTED] T5267.020
    
    [GRAPHIC] [TIFF OMITTED] T5267.021
    
    Mr. Souder. I would like to point out for the record that 
Superintendent Carraway is one of the greatest singers that I 
have heard and the whole country would have been much better 
off if he had been the Super Bowl half time show. [Laughter.]
    Mr. Carraway. Thank you very much.
    Mr. Souder. Mr. Hill. I want to particularly thank Mr. Hill 
for his leadership, which is a lot of the reason we are here 
today. When he first decided to run for prosecuting attorney 
and we got to know each other and I saw his intense interest, 
actually from way back when he was interested in being U.S. 
attorney, and we talked in my office long before I ever knew I 
was going to represent Elkhart County. I was very impressed 
with his aggressive commitment and had he been the final choice 
for U.S. attorney, he was committed, as I am sure the current 
U.S. attorney is as well, but he was very focused on this 
issue. And when he ran for prosecutor and then got elected 
prosecutor, I said we are going to do this together, and we are 
finally getting it done.
    So I thank you for really hosting us here in Elkhart today, 
along with Congressman Chocola, and look forward to your 
testimony.
    Mr. Hill. Thank you, Mr. Chairman, Representative Chocola, 
my name is Curtis T. Hill, Jr. and I am prosecuting attorney 
for the 34th Judicial Circuit, Elkhart County, IN. As a 
resident of Elkhart County, which is a part of the second and 
third congressional districts, I am also honored to be so ably 
represented in Congress by Chairman Souder and Representative 
Chocola. Furthermore, I would like to thank Chairman Souder for 
convening this field hearing, appropriately entitled ``Fighting 
Methamphetamine in the Heartland'' here in Elkhart County, 
which is a community truly indicative of America's heartland.
    By way of brief background, Elkhart County is comprised of 
approximately 183,000 people disbursed among medium sized urban 
centers of Elkhart, Goshen and Nappanee as well as the towns of 
Bristol, Middlebury, Millersburg, New Paris and Wakarusa. While 
maintaining a significant agricultural base, Elkhart County is 
also nationally recognized for manufactured housing, 
recreational vehicles and other manufacturing industries. This 
has resulted in a generally low unemployment rate here in 
Elkhart County. If you cannot get a job in Elkhart County, you 
do not want one bad enough.
    I would like to also point out that the geographical 
location of Elkhart County adds to the characteristics that 
make this area red-hot for distributors of methamphetamine. A 
relatively close proximity to the major metropolitan centers of 
Detroit and Chicago, along with our access along the Indiana 
Toll Road, literally makes Elkhart the cross roads of the 
midwest. As a result, this particular area of the country, 
where this committee is sitting today, is a prime location to 
do business, both legitimate and otherwise. Many of the 
characteristics that attract legitimate business and industry 
to this area are the same characteristics that attract the more 
notorious and corrupting influences that engage in organized 
criminal activities, including the distribution of 
methamphetamine. As a representative of the Indiana criminal 
justice system, I appreciate the opportunity to address this 
committee on the difficulties facing our local communities and 
on working together proactively and finding real solutions to 
these difficulties.
    Within the past few years, the criminal justice system has 
witnessed a dramatic increase in the use and distribution of 
methamphetamine. It has seemingly come out of nowhere to become 
the dominant illegal drug of choice in this area. Our courts 
are not only deluged with delivery and possession of 
methamphetamine crimes, but a growing percentage of other 
crimes indirectly related to methamphetamine activity continue 
to increase as well. The corrosive effects of domestic 
violence, child abuse, robberies, burglaries and identity 
thefts are indirect consequences of methamphetamine activity 
and are devastating our communities. Philosophically, I 
recognize that education and treatment programs that work are 
vital to decreasing the phenomenal demand that fuels the 
methamphetamine monster. However, interdiction combined with 
swift and effective law enforcement is the best hope for 
destroying the organized networks that pump these poisons 
through our communities.
    I became Prosecuting Attorney in January 2003. I believe 
that it is incumbent upon every productive citizen to take a 
part in saving our communities from this spiraling decline 
brought on by illegal drug use. If left unchecked, the 
deterioration here and in the remainder of the midwest region 
will continue to escalate until we see a time in the not so 
distant future where it will seem normal for young children to 
smoke marijuana cigarettes. If unchecked, it will become 
ordinary to live next door to a crack house. If the 
deterioration goes unchecked, users, manufacturers and 
distributors of methamphetamine will no longer hide in the 
shadows of our community like so many cockroaches under a rock, 
but they will be out openly, spreading their pain because the 
rest of us let it happen.
    So you want to talk about fighting methamphetamine in the 
heartland. Let us talk about it.
    To fight methamphetamine in the heartland, we should begin 
with the word fight and what fight means. It is a word that is 
used by many people for many things, but for me, it means fight 
to win. No one ever won a fight by digging in or holding his 
ground. If the fight ends in a draw or your opponent withdraws, 
the only thing that is assured is that your opponent has a 
better understanding of how you fight and an opportunity to 
come back and fight another day. To win a fight, we need to 
take the fight to our opponent and remove our opponent's 
capacity and will to fight on. That is called winning. I have 
no doubt that if we begin with the premise of winning the fight 
rather than merely fighting the fight, we will then come to 
terms with the resources that will be required to achieve our 
objectives.
    While clandestine laboratories are the more typical source 
of methamphetamine in the rural communities of the midwest as 
well as many of my neighboring counties, the largest source of 
methamphetamine in Elkhart County is, oddly enough, the 
importation from Mexico and the superlabs out west through 
expansive organized criminal networks taking advantage of our 
strategic location as the midwestern gateway to the east and 
their ability to blend into certain aspects of our community to 
establish major distribution lines. Chief Investigator Wargo 
covers this area in greater detail through his testimony.
    While we would appreciate assistance from the Federal 
Government, we have started our local fight against 
methamphetamine. Before taking office, we began to develop our 
anti-drug strategy utilizing the resources available to us 
locally. The central piece of our local strategy is 
information. Information is the single most important and 
powerful weapon in proactive crime fighting. Centralizing 
information as well as distributing information along a line of 
communication through law enforcement allows us to combine our 
efforts, reduce duplicity and confliction, and ultimately be 
more effective. If I can point to a single advantage that 
organized crime has over law enforcement, it is that they 
recognize no jurisdictional boundaries and they work together. 
By borrowing a page from the criminal's handbook, local law 
enforcement as well as State and Federal law enforcement cannot 
be limited by jurisdictional boundaries and must work together 
when it comes to organizing a plan for fighting 
methamphetamine.
    Local communities such as Elkhart County have sub-
communities which have their own separate and distinctive 
characteristics. Therefore, the tactical planning must be 
flexible enough to adapt to local circumstances. For example, 
the city of Elkhart and the city of Goshen, though separated by 
only 11 miles, do not share precise issues regarding 
methamphetamine, crack cocaine and marijuana. Therefore, we 
sought input of all our local law enforcement partners in 
designing an organization that would serve as the central 
repository for criminal intelligence and dissemination among 
law enforcement, coordinate and strategize the overall anti-
drug effort, and supervise and conduct long term investigations 
concerning organized criminal activity including manufacture, 
distribution and use of methamphetamine.
    The result of this collaborative effort was the creation of 
the Organized Crime Drug Enforcement Unit which is housed in 
the Prosecuting Attorney's Office and supervised by my chief 
investigator. The personnel of this unit are on assignment to 
my office from various law enforcement agencies within our 
county. The most exciting aspect of our organized effort is the 
establishment of satellite anti-drug teams working within the 
city of Goshen's Police Department and the city of Elkhart's 
Police Department, retaining their respective independence in 
dealing with shorter term street level interdiction while 
remaining an active regular partner in the overall effort.
    We have a philosophy that not all drug activities require 
the same approach. In many instances, a long term investigation 
involving confidential sources and undercover drug buys is the 
correct approach. However, many other situations require a 
swifter, more decisive action that may or may not result in 
arrests but is designed to restore neighborhoods and remove 
criminals. The development of this prototype allows us to 
target minor to mid-level problems and make them go away. By 
responding to neighborhood complaints quickly, members of the 
community are getting a stronger sense that their complaints 
are not being ignored and, therefore, more complaints and 
reports of suspicious drug activity are being reported to my 
office and disseminated to the appropriate response team and 
addressed within appropriate time limits.
    On a weekly basis, 20 to 25 police officers and prosecutors 
meet at my office to exchange intelligence information. We 
refer to this process as our Criminal Intelligence Sharing 
System. Each law enforcement agency in the county has 
representatives from their department participating, as well as 
representatives from the Indiana State Police and the DEA. 
Through this communication process, we have set specific 
targets and, working together, we have been very successful in 
bringing many of those targets to justice thus far, with great 
confidence for others to come.
    I firmly believe that the Federal Government needs to step 
up to the plate and join us in recognizing that there are other 
areas in northern Indiana outside of Lake County that are in 
need of assistance in fighting back organized criminal activity 
and drugs. While we wait for the Federal Government to 
strengthen border controls and immigration policies addressing 
undocumented aliens, we here in Elkhart County need Hispanic 
law enforcement officers and/or Hispanic undercover operatives 
to assist us in gaining access to information that is hidden, 
largely out of fear of deportation. Although my office has 
developed a very sound relationship with the South Bend office 
of the U.S. Attorney's Office, we need to develop initiatives 
that go beyond being merely supportive of each other's efforts, 
and being partners in a truly collaborative process that allows 
the resources of the Federal Government to be fully operational 
by the leaders of local law enforcement.
    When it comes down to it, we need money, people and 
information. Money to supplement and expand investigations into 
areas that we know of but are limited due to financial 
constraints. People in the sense of broadening our scope, 
limited by the resources available to us locally and the lack 
of Hispanic confidential sources. Information as it pertains to 
developing stronger and greater regional intelligence and 
strategies, given our recognition that a delivery of 
methamphetamine on a street corner in Elkhart County tonight 
has implications far beyond the confines of that particular 
location.
    I would like to thank this committee again for providing me 
an opportunity to address you on these issues and for taking 
seriously your responsibility in providing assistance to local 
communities in winning the fight on methamphetamine.
    Thank you.
    Mr. Souder. Thank you very much. We will next go to Mr. 
Bill Wargo, the chief investigator for the Elkhart County 
Prosecuting Attorney's Office.
    [The prepared statement of Mr. Hill follows:]

    [GRAPHIC] [TIFF OMITTED] T5267.022
    
    [GRAPHIC] [TIFF OMITTED] T5267.023
    
    [GRAPHIC] [TIFF OMITTED] T5267.024
    
    [GRAPHIC] [TIFF OMITTED] T5267.025
    
    Mr. Wargo. Thank you, sir. Chairman Souder and Congressman 
Chocola and guests, I appreciate the opportunity to appear 
before you today. My name is Bill Wargo, I am the chief 
investigator with the Elkhart County Prosecutor's Office and I 
have been a police officer for 27 years. I currently supervise 
and coordinate all the illegal drug investigations throughout 
Elkhart County.
    There are several monumental concerns confronting law 
enforcement in this county in its efforts to investigate and 
prosecute the manufacture, distribution and use of 
methamphetamine. Not the least of these, however, is that while 
methamphetamine distribution and use has become our No. 1 
single drug enforcement problem, we still must face and 
maintain a focus on the interdiction of the distribution and 
use of other illegal substances such as crack cocaine, powder 
cocaine, marijuana and the diversion of prescription 
medications.
    African-American street gangs, such as the Gangster 
Disciples and the Vice Lords have long cherished Elkhart County 
as fertile territory for their illegal enterprises. The primary 
base of operations for these organized criminal organizations 
is Chicago. And these two entities are primarily responsible 
for the wholesale distribution of crack cocaine in Elkhart 
County.
    The spotlight on lower level and street level interdiction 
initiatives requires a significant commitment of personnel, yet 
rarely results in a large seizure of product. These types of 
investigations have a positive, but cosmetic effect. Because 
these types of dealing operations are highly visible, they 
generally produce a large number of citizen complaints and 
these complaints require a law enforcement response.
    Our dilemma is balancing the response to highly visible, 
yet low yield, investigations with upper level, high volume 
investigations. The commitment of police manpower and manhours 
gives the appearance to the community that the police are being 
effective in their efforts. While the police effectiveness is 
naively measured by body count statistics, the actual impact on 
the total problem is minimal.
    This is not to say that these street level enforcement 
efforts should not be undertaken. In fact, they are an 
effective law enforcement tool to develop intelligence and 
informants to assist in the investigation of mid-level, upper-
level and wholesale traffickers. The quick hit interdiction 
efforts are the foundation of addressing all these other 
issues.
    Mid to upper-level drug trafficking investigations require 
an ongoing commitment of personnel and a mechanism to prevent 
confliction of investigations that are being conducted by other 
agencies; Federal, State and local.
    The explosion of methamphetamine use and its associate 
manufacture and distribution has been partially exacerbated by 
the stepped up efforts of Federal law enforcement agencies to 
interdict the importation and distribution of cocaine from 
South America.
    Meth distribution has several distinct advantages over 
cocaine. The primary advantage is that the substance can be 
manufactured from chemicals and items that can be purchased at 
numerous retail locations. The process clearly is not rocket 
science and while it is extremely hazardous to the manufacturer 
and anyone who may be in close proximity, individuals of 
relatively low mental capacity are able to combine the 
materials together and make a reasonably high quality 
substance. The fact that we have as few conflagrations and 
explosions as we do is probably a testament to luck over skill.
    The local production of meth, using primarily the Nazi 
methods, is prevalent in this area for several reasons. One of 
the primary reasons is the ready availability of the primary 
ingredients such as anhydrous ammonia. The primary cookers are 
biker types that have received their training in manufacturing 
from other equally unsophisticated individuals.
    The Indiana State Police and their clandestine meth lab 
teams are the sole agency qualified to dismantle these 
operations on a local level. This places an appalling onus on 
that agency.
    While this local production problem is of major consequence 
in this county and we are constantly vigilant to investigating 
clandestine labs, we have not established that as our primary 
focal point.
    Our focal point has been determined for us by the huge 
influx of Hispanics into Elkhart County. Over the past several 
years an environment has evolved that has made this county a 
significant distribution point for Mexican nationals dealing in 
methamphetamine.
    Elkhart County, by anyone's definition, is heartland 
America. Elkhart is nationally known for its manufactured 
housing, recreational vehicle industry as well as other 
manufacturing activities and this situation means that there 
are numerous jobs available. In addition, this county has 
historically been a leader in the State of Indiana in poultry 
and agricultural employment. These factors have made Elkhart 
County an encouraging destination for immigrants looking for 
steady employment. It could easily be estimated that 90 to 95 
percent of the Hispanics that have located in this area have 
done so in search of the American dream. They have come here 
for employment, to raise a family and to make a life that will 
be better for their children than what they themselves have 
experienced.
    The unfortunate aspect of this is that this has also 
provided an opportunity for Hispanics that have a separate, 
illegal agenda, to also infiltrate this community. Historically 
in this country, new immigrants have held onto their own 
culture, language and life style through at least the first 
generation. These newly arrived Hispanics are doing the same 
thing. This creates a situation wherein law enforcement has the 
added hurdle of trying to infiltrate illegal activities of the 
minority of the Hispanic population. Law enforcement officers 
that do not have a background in Hispanic culture are hard 
pressed to conduct covert investigations into the sub-culture 
that is drug trafficking.
    The purpose of these hearings on this matter are to try to 
determine what the Federal Government's role in addressing 
these heartland issues can and should be.
    Our office currently has a good working relationship with 
the U.S. Attorney's Office in South Bend. We have also 
developed strong ties with DEA's Merrillville office through 
the designation of one of our officers as a Task Force Agent. 
The coordination of our investigative efforts has been a 
positive in our ability to understand the scope of the problem. 
And we have agreed to investigative strategies that support and 
supplement each entity's effort.
    The deficiencies that we have is that we do not have 
sufficient Hispanic undercover operatives. Sworn personnel and 
reliable confidential sources that are Hispanic and fluent in 
the language are a prerequisite to infiltrating the Hispanic 
drug cartels and distribution networks.
    The other deficiency is funding for long term 
investigations. The quantities that are commonly being sold in 
and around Elkhart County are large. Where several years ago, 
we felt that a multiple ounce buy of cocaine was a major 
accomplishment, we now find ourselves with the ability, but not 
the resources, to make multiple pound purchases of 
methamphetamine.
    There are several initiatives that can be promulgated. Some 
of the initial steps have already been accomplished.
    Initiatives that have been successful in other 
jurisdictions but not put in place and dedicated to Elkhart and 
St. Joseph Counties are such as: A posted duty station for this 
area; designation of an OCIDETF Task Force to focus on this 
Elkhart/St. Joseph County problem; establishment of a HIDTA 
group for Elkhart and St. Joe Counties; and maybe most 
importantly, the assignment of a criminal analyst to focus on 
the methamphetamine distribution problem in Elkhart and St. Joe 
Counties.
    A prime example of the ready availability of the Mexican 
methamphetamine in Elkhart County is the price points that have 
been established in just over the past 9 months. Since last 
summer, when a pound of methamphetamine was going for $7,500, 
through the fall, Thanksgiving, Christmas and now into January 
where we are now under $4,000 a pound tells anyone that the 
supply and demand is there. The laws of supply and demand apply 
to illegal as well as legal commerce.
    The comparison of cocaine and methamphetamine seized or 
purchased by law enforcement agencies in this county over the 
past 5 years is reflected in the attached graphs, which I have 
submitted with my written testimony. It demonstrates very, very 
graphically that the meth problem is growing at an alarming 
rate.
    If we are unable to find ways to attack this problem with 
appropriate funding levels and additional law enforcement 
personnel and equipment, there is little hope that we are going 
to be able to stem the tide of the meth explosion relying on 
our resources alone.
    Thank you, sir.
    Mr. Souder. Thank you very much.
    Detective Anderson.
    [The prepared statement of Mr. Wargo follows:]

    [GRAPHIC] [TIFF OMITTED] T5267.026
    
    [GRAPHIC] [TIFF OMITTED] T5267.027
    
    [GRAPHIC] [TIFF OMITTED] T5267.028
    
    [GRAPHIC] [TIFF OMITTED] T5267.029
    
    [GRAPHIC] [TIFF OMITTED] T5267.030
    
    Mr. Anderson. Good morning, distinguished Chairman Souder 
and Congressman Chocola, my name is Detective Daniel Anderson 
from the Starke County Sheriff's Department located in Knox, 
IN. I would like to request that you use my written statement 
because I will go off of that a little bit.
    Our county is very small, population, 25,000 people. Our 
drug task force is very small. We have one full time officer 
and two part time officers assigned to narcotics 
investigations.
    The last 5 years or so the meth lab count has just kept 
going up and up and up. Two years ago, we did approximately 80 
controlled buys in Starke County for different various 
narcotics. Last year, we did approximately six. The majority of 
our efforts have concentrated on the methamphetamine problem. 
The money that we use to purchase illegal drugs has now been 
spent to buy equipment for the officers for safety to enter 
these meth labs and investigate the meth labs.
    In my prepared statement, I talked about our first 
methamphetamine lab was a rather large lab and I gave a quoted 
price of street value of $2,300 per ounce. In our area, we do 
not have an influx of Mexican methamphetamine, the majority of 
ours is all homemade, small clandestine labs and they average 
about half ounce to an ounce per manufacturing process.
    I listened to the DEA and they were talking about large 
scale pseudoephedrine. The majority of our groups are traveling 
in a vehicle to dollar stores, WalMart, whatever. They will 
take six or seven individuals, go into the store, buy three 
boxes of cold medicine and stay under the suspicion level and 
exit the store and go to the next store. It is a round shopping 
trip, how they do it. The average batch, like I said, is around 
an ounce per batch. Seven individuals doing that or five 
individuals in the course of a day can get enough products to 
produce an ounce of methamphetamine.
    We have two Farm Bureau co-ops in our county which are the 
supply for anhydrous ammonia. We have worked investigations on 
theft cases there and tried to limit that and then they started 
hitting the local farmers that have the product. So we have 
tried to concentrate our efforts on just the precursors and the 
chemicals needed, to not much success. We have met with 
retailers, tried to talk to them about their issues and it 
seems like lately the only conversation we have with retailers 
is when their shoplifter or theft loss rate gets up to the 
point where they are alarmed.
    As far as the county goes in the last year with meth labs, 
we handled 23 illegal drug lab cases, 11 of those were where 
the Indiana State Police clandestine lab team came in and 
assisted. One of those labs, we netted nine individuals and 
three separate batches of methamphetamine were cooking at that 
time. All nine of those individuals went into court, asked for 
speedy trials, requested pauper attorneys and it bogged down 
the system.
    Then as we went on through the year, we kept finding more 
labs, more individuals and the court and the prosecutor staff 
just became bogged down. There was no way that they could get 
small claims court issues, civil issues through the court for a 
period of time. The docket right now stands with 12 or 15 
settings and the majority of them are all criminal cases, per 
day. The probation department has been overwhelmed as well as 
the jail. Our jail was originally designed for 45 inmates. At 
periods last year, we were running in the 80's. At the time I 
typed this up, our population, inmate population, 50 percent of 
what we had in the jail were methamphetamine related inmates.
    Initially when they come in, they need to go through a 
period of time where they come down off the drug. We have to 
put them in separate areas to protect themselves and protect 
other inmates from them due to the violent, abusive nature, and 
that takes valuable space in the jail that we could use for 
work release and other individuals. So we talked about that a 
little bit.
    And as far as our coroner in the county, we went through 
and looked over the last couple of years and our problem is 
kind of unique in the fact that we have a large Oxycontin, 
Oxycodone problem with the methamphetamine problem. So we 
looked at the amount of deaths in a 2-year period related to 
those two drugs, and it was in the area of 16 deaths. For a 
population of 25,000, that was quite a bit.
    I am not going to burn up as much time, but what I would 
like the Committee to do is look at what they can do for the 
small counties, the small town areas of the State. We do not 
have the Mexican meth problem, we have just the local problem. 
We need to look at trying to help from the beginning of child 
endangerment all the way to the jail, to the court, to the 
prosecution, to the probation office and then to the Department 
of Corrections.
    I have seen individuals go to jail for 365 days, get 
released from jail and be re-arrested for methamphetamine 2 
weeks later. There has to be some treatment or something we can 
do besides just housing them.
    We had one case where in December a girl that we arrested 
with an illegal drug case, methamphetamine, was out of jail for 
a week and then she was found with an overdose in another 
county. So we have to do something.
    I pointed out what the future is with the methamphetamine 
problem. Every county in the State is affected by the illegal 
methamphetamine problem. We will soon run out of funds from 
this epidemic in one form or the other, whether it is the jail, 
the prosecutor, the court, child welfare, child services. Every 
State in the country that is affected by the illegal 
methamphetamine problem will run out of funds to fight this 
epidemic. In Indiana now, every year we are doubling our stats 
almost on illegal drug labs taken down, and at some point, 
Indiana is going to run out of money.
    And my third issue on that is every citizen in the United 
States will bear the cost of this epidemic or become a victim 
to a methamphetamine related incident. And by that I mean we 
all pay the cost of these cleanups, drug cases, inmates and 
treatment of the inmates.
    What can be done to solve the problem? Our key issue in our 
area is pseudoephedrine and ephedrine. We talked about it being 
imported into the United States through Canada and Mexico. 
Somewhere, if you take away that product, you cannot, as the 
other officer said, you cannot bake the cake. And I do not know 
what the recommendation for that is other than to go to by 
prescription only or to just take the product off the market. 
But something has to be done.
    The second issue is you have to increase funding to State 
and local governments that have had the problems with the 
manufacture of methamphetamine and the influence of Mexican 
methamphetamine coming in and help clean up the existing 
problems and hinder a further one.
    [The prepared statement of Mr. Anderson follows:]

    [GRAPHIC] [TIFF OMITTED] T5267.031
    
    [GRAPHIC] [TIFF OMITTED] T5267.032
    
    [GRAPHIC] [TIFF OMITTED] T5267.033
    
    [GRAPHIC] [TIFF OMITTED] T5267.034
    
    Mr. Souder. Thank you very much. And maybe before we go to 
Corporal Ciriello, you mentioned that Starke County is about 
25,000 people, so if somebody looks at this record, to put this 
in context, we have a pretty wide range today. Elkhart County 
is 170,000-180,000 people, Kosciusko is 70,000-75,000 people. 
We will have witnesses on the next panel from Noble, Cass and 
DeKalb Counties which are more in the 35,000-50,000 ranges and 
then from Allen County, which is 320,000. So we have Fort Wayne 
in Allen County, is a mid-sized city; Elkhart kind of at the 
lower end of mid-sized cities to smaller and rural counties. So 
we will have a good mix of the meth problem throughout northern 
Indiana and really tracking the country.
    Corporal Ciriello, thank you for coming up from Warsaw.
    Mr. Ciriello. Chairman Souder, Congressman Chocola, thank 
you for having me here today. My name is Tony Ciriello, I am a 
Corporal with the Kosciusko County Sheriff's Office assigned to 
the Drug Task Force.
    We are a small task force made up of five officers, three 
from the Sheriff's Department and two from the Warsaw City 
Police Department. We do operate off of a Federal grant, that 
is the majority of our budget and funding for our unit.
    As was mentioned, our area is approximately 76,000 full 
time residents, but due to the fact we have 101 lakes in our 
area, our population doubles in the summer time, and with the 
population doubling, we also see an increase in our drugs 
doubling in the summer.
    We have three bulk facilities within our county that handle 
anhydrous ammonia and supply it to the farmers and also we have 
13 cities or towns within our county that our drug task force 
provides drug enforcement for.
    Our task force started back in 1988, went full time in 1989 
and in moving into the 1990's, we saw a lot of cocaine moving 
in and a lot of marijuana that we have dealt with. We heard 
about meth coming in but we did not see it. In fact, we did not 
see methamphetamine that we knew of in our county until the 
last 5 years. And within the last 5 years, we have seen it 
skyrocket. Dramatic increases in the amount of meth being sold, 
imported and made in our county.
    We started finding our first meth lab in 2001, a 
clandestine lab in the basement of a home. In that year, we 
ended up finding five active drug labs within our community. We 
were pretty devastated by that: it is something we never had to 
deal with. And in 2002--I am sorry, in 2001, we dealt with 10 
labs and in 2002, we dealt with 5. And those were active labs 
where we had to call in the State Police Clandestine Lab Team 
for cleanup. We found just as many that were not in the process 
of cooking, but had all the precursors and reaction vessels and 
everything ready to cook, but they were not in the process at 
the time we did those. In 2003, we increased to 11 labs and 
more than 30 where we just found the precursors. So there is a 
continuing increase. Right now, we are finding mobile labs, we 
are finding labs in wooded areas that are very hard for us to 
detect. When they are doing it in a neighborhood, the neighbors 
smell the fumes, as was discussed earlier, and call and report 
it. But when they are going out in the middle of the woods to 
do their chemical part of it, we are missing a lot of it. 
Farmers are finding it or hunters are finding it and calling us 
and reporting those.
    All of our labs that we have dealt with use anhydrous 
ammonia, we have yet to see a red phosphorus lab in our area. 
However, I have recently received information that there are 
people buying large amounts of iodine that live in our area. 
Iodine is a component in a red phosphorus lab. So we may begin 
to see those in northern Indiana a lot more.
    Besides the problem with our locals manufacturing meth, we 
also have a large Hispanic population in Kosciusko County and 
that has led to a lot of importing of high grade 
methamphetamine. The majority of methamphetamine we get in 
Kosciusko County is imported from Mexico. We work closely with 
the Bureau of Immigration and Customs Enforcement out of Texas. 
They have sent agents up to work with us and we were very 
successful last year in arresting several illegal aliens and 
seizing large amounts of marijuana and meth as well as cocaine.
    It is not the majority of our Hispanic population but a 
large part of them are illegal aliens. They travel around, stay 
with different people. We make cases on them for 
methamphetamine dealing, they move away. We issue warrants for 
them, they come back 3 weeks later as somebody else. It is very 
hard to keep track of them.
    We have determined that most of the people we have been 
dealing with, at least in one family, have ties in Mexico, they 
come to Chicago, IL; Warsaw, IN; Pasco, WA and recently we 
discovered Gwinnett County, GA as being a part of that.
    With the large importation of Mexican meth in 2002, we 
thought we were doing really good. We had about 4 ounces of 
meth, of which we made undercover buys and received. In 2003, 
we did 2 kilos. That is a lot for a small unit. But again, the 
majority of that is imported Mexican meth.
    We have a lot of resources made available to our unit but 
funding is something that we lack. As I said, we operate on a 
Federal grant that provides us some money, but we only get 
$1,500 a year for training out of that budget for five 
officers. To be able to send them to quality meth lab training 
is impossible. Currently our grant runs out at the end of March 
and a new grant takes over April 1. I am down to $212 worth of 
buy money to buy drugs for the remainder of that time. So, you 
know, with the increase in the meth and the increase in meth 
cases, it has been tapping us financially.
    In 2002 our unit made 100 cases. We thought we were doing 
really well. In 2003, we made 190 cases, 46 of those being 
meth. That averaged out to 3.8 cases per month involving meth. 
Up through last night, we have now made 11 cases of meth so 
far. We are way above our average, we just made an arrest last 
night. So our meth cases are increasing, we are seeing more of 
that than any other drug.
    We do see a large importation of Mexican marijuana too, 
which we have taken almost 300 pounds of marijuana off the 
street last year and the majority of that came from Mexico.
    But meth continues to be our biggest problem and it is a 
problem that like anybody else in this room, we are doing our 
best to battle it, but we are all struggling in the funding end 
of it and the resources throughout the United States. And I 
think these hearings are pulling us altogether and giving us a 
chance to meet other people, work with other people and maybe 
solidify our war on methamphetamine and maybe try to slow it 
down.
    We have had good luck with our cases. We are an aggressive 
unit and we look forward to working with other agencies, and I 
wish to thank you for the honor to testify in front of this 
committee.
    [The prepared statement of Mr. Ciriello follows:]

    [GRAPHIC] [TIFF OMITTED] T5267.035
    
    [GRAPHIC] [TIFF OMITTED] T5267.036
    
    [GRAPHIC] [TIFF OMITTED] T5267.037
    
    [GRAPHIC] [TIFF OMITTED] T5267.038
    
    [GRAPHIC] [TIFF OMITTED] T5267.039
    
    Mr. Souder. Thank you. I know you were trying to be 
respectful of the time, but my first question to you is going 
to relate to something you have in your written testimony, the 
town of Burket. Would you go through that part of the story, 
because I have a particular question I want to ask about that.
    Mr. Ciriello. Certainly. I talked about the three bulk 
facilities we have. One of them is located within the town 
limits of Burket, surrounded by houses, a school, churches and 
a few businesses. On November 21, we had surveillance cameras 
set up to try to catch the people who were stealing anhydrous, 
but on November 21, in the middle of the night, we thought we 
might have some problems, so we were out and about and we 
decided we would check on this facility. And when we did, we 
found two men in there trying to steal anhydrous. They were 
taken into custody without a problem.
    However, the problem we found out, once we got company 
officials there to work with us and see what all they had got 
into, we discovered that they were unscrewing a plug on a inch 
and a half main fill line on a 45,000 gallon bulk tank that was 
85 percent filled. The company representatives told us they 
were three threads away from getting that plug out of that 
tank. And that is what they told us and I sincerely believe 
them, knowing what anhydrous can do. If they that plug out, it 
would have killed the majority of the people in Burket, IN. 
Burket, IN is a small area, about 250 people, but it is 250 of 
our citizens that were endangered by these two men.
    Being in the middle of the night and as rapidly as the 
anhydrous would have come out of that tank on an inch and a 
half line, evacuation would have been impossible. There would 
have been no saving any of them.
    Mr. Souder. You mentioned then about a potential 
regulation. Could you explain what kind of regulations you 
would think, ideally would be done at the State level, but even 
at the Federal level, where there are large units? Our goal is 
not to restrict farmers or wholesalers, but there needs to be 
some way that you do not all of a sudden in the middle of the 
night wind up dead because some idiot decides he wants to do a 
meth cook.
    Mr. Ciriello. And when you were at our office a month or so 
ago, I discussed this with you. You take a propane facility 
that has bulk propane tanks, they have to be fenced and secured 
from the public, to try to prevent thefts and because of the 
explosion hazard and a lot of safety issues. Well, anhydrous is 
just as dangerous, maybe not as much with explosion hazard but 
with a health hazard. And I think, on these large bulk 
facilities, requiring them--the same regulation, of being 
fenced in. It would provide more security to them. People who 
really want in are going to get in, whether there is a fence or 
not, but it is going to stop a lot of people from getting into 
the bulk facilities.
    The downside to that is they will target more the farmer 
and their tanks sitting out in the field. But generally a 
farmer's tank sitting out in the field is in a remote open 
field, and not in a heavily populated area like we find a lot 
of our bulk facilities.
    It is regulations like that that could help slow down the 
theft and the real danger involved with the bulk facilities 
like we could have had in Burket.
    Mr. Souder. Well, thank you very much.
    First, I appreciate all of your grassroots level work in 
each of your communities. It is very important, there is never 
enough tribute. Eventually I want to ask some questions of each 
one and so will Congressman Chocola. But maybe for the record, 
just like we have heard about how the town of Burket could have 
been taken off the face of the map, could you describe, I know 
both in Elkhart and Kosciusko, I have heard and I am sure it is 
true for the State Police and also in Starke County, could you 
describe the struggle that the individual officer has when he 
goes into a place where there is a lab and how we are putting 
each of you at risk? Let me ask a question of Detective 
Anderson, you said you used your money on vests?
    Mr. Anderson. No, we bought personal safety things such as 
masks.
    Mr. Souder. Have you ever worked with the Federal 
Government where they make different things available? Is there 
anything available to get protection in that program for 
officers?
    Is Scott here? There. In the CTAC funds, do you know if 
there is money for safety equipment for officers when they go 
into a meth lab?
    Mr. Burns. That has come primarily from First Responder 
money. You are talking about the hazmat suits and the DEA 
training? Is that not right, Nick?
    Mr. Souder. Can you come forward. This is Scott Burns who 
testified from the first panel. I will have to swear him in 
again.
    Mr. Burns. Let me answer it this way, Congressman, I have a 
meeting at 1 p.m., with several of the State and local folks 
and I will commit to you and Congressman Chocola that we will 
find out whether it is from Homeland Defense First Responder 
money or from CTAC, how we can assist.
    Mr. Souder. Because it seems like if there is this huge 
demand at the local level, that ought to be one of the things 
we are offering to local law enforcement.
    Mr. Carraway. Homeland Security is making available the 
purchase for those first responder equipment. Some of those 
dollars, to my recollection, have not all been distributed, but 
my understanding is that the purchase for these hazardous 
material suits will be available out of those Homeland Security 
dollars.
    Mr. Souder. Is that an Indiana Homeland Security?
    Mr. Carraway. Yes, that is for every State that does its 
homeland security initiative strategic plan, those are those 
Federal dollars that come down for the use of that equipment.
    Mr. Souder. Thank you. I know we have legislation moving 
forward through our Homeland Security Committee right now----
    Mr. Carraway. These are the old 2002-2003 dollars.
    Mr. Souder [continuing]. To address some of that, because 
we would like to see a similar thing, which they are trying to 
set up inside Homeland Security, like we have in CTAC in 
narcotics, where they offer different equipment. There is an 
analysis of what an individual community needs, what the risk 
level is, whether they can maintain the equipment.
    But here is an unusual thing, because one of the problems 
we have in Homeland Security is that, for example, Coast Guard, 
Border Patrol, Customs are now under the Department of Homeland 
Security, and they clearly have the large part of the narcotics 
mission. In addition, FEMA and emergency response kind of 
relates to this and it is over in Homeland Security, but here 
we are using drug money, buy money, to get protection for the 
individual officers who are going in. Something is messed up in 
that process.
    I got myself digressed from the first question. We have 
made the case that we need to do something about the vests. 
Could you describe, Corporal Ciriello, maybe you can because 
you are out there in the task force, what is it like walking 
up--what are you fearful for, what are you watching, have you 
seen individuals, you or your friends who have been caught up 
in this, and maybe you can describe some of the things in the 
other places too.
    Mr. Ciriello. Well, given the chemicals that they use to 
manufacture meth, being anhydrous, ether, paint thinners, drain 
cleaners; you know, they are all hazardous chemicals when they 
are breathed in by anybody. Most of these guys that make the 
meth, you will find them having their masks or at least dust 
filters or things that they are wearing to try to protect 
themselves.
    When we walk in on a lab, especially unsuspecting, we do 
not know what we are going to get into. And two of the biggest 
things are the health hazards associated with the fumes in it 
and the explosion hazard if a spark is set off. Because most of 
these that we find in the buildings are done in garages or 
basements where, you know, they are fairly air tight or as air 
tight as they can be to keep people from smelling it. And those 
are two of the biggest things we have.
    One of our officers, about 2 years ago, we went to check on 
a tip of somebody possibly dealing in meth. It was a knock and 
talk at the door. Well, come to find out they had a lab up 
there, so we were doing some searching and there was a large 
Coleman cooler, opened it up and it was filled with liquid 
anhydrous. Our officer got the fumes of it, just a big faceful 
of it. He spent 7 hours in the hospital taking breathing 
treatments and then went to outpatient breathing treatments for 
a few days afterward and was on medication, just for that one 
large faceful.
    That is something that we are facing a lot in these labs 
and at these anhydrous facilities when we are out sitting on 
them at night trying to catch the people that are stealing it. 
And a lot of times when these guys come in, they don't know how 
to handle it, so they will come in and get their little dip and 
run off and leave the valve open and we end up with the fire 
department down there to try to wash things down and some 
evacuation. But those chemicals are very toxic to the human 
body, and not only the officers going in, that is one of our 
big concerns, but as testimony has told a while ago, the 
children in there.
    We had one guy we got three times last year, three 
different labs and his twin children were in the house every 
time. And we removed them with the help of child protective 
services all three times. The family has now since moved away 
from our county to a county in the northern part--a little 
farther north of us to get away from us because they feel that 
we are targeting them and picking on them. But three active 
methamphetamine labs in 6 months.
    Mr. Souder. I am trying to figure out what county.
    Mr. Ciriello. It would be north and just a little west, not 
quite your county, just a little west of you.
    Mr. Souder. Anybody else want to share anything on that?
    Mr. Carraway. It is very important to understand, 
Congressman, that we stress time and time again to law 
enforcement agencies, to the public, to those that have a 
suspicion that someone is cooking methamphetamine or that 
anhydrous ammonia is being utilized, to make a call to the 
Clandestine Lab Team. It is obviously against the law to go 
into these places without the appropriate protection, but also 
because of the zealousness of law enforcement in trying to do 
the right things, these accidents end up happening. But we urge 
again and again to make a phone call and get the appropriate 
responding agency. Sometimes it just happens and we all 
understand that, but realizing that they are very, very 
dangerous situations, particularly if you suspect that is 
happening, a phone call to the appropriate responding agency 
may avert a tragedy.
    Mr. Souder. So how, as a practical matter if knock and tap, 
is that what you said?
    Mr. Ciriello. Knock and talk.
    Mr. Souder. Knock and talk. Sounds so friendly. [Laughter.]
    Knock and talk, and they say they have a meth potential 
cooking situation and you do not know----
    Mr. Carraway. Back out of the situation, make a phone call 
to those----
    Mr. Souder. How long does it take the State Police to get 
there?
    Mr. Carraway. We have 100 officers that are part of the 
Clandestine Laboratory Team. There is not a day that goes by 
that the team is not called out to either remove an abandoned 
site or an active site. So certainly the timeframe is 
insignificant to the danger and the amount of harm that could 
happen to them. I do not have any stats about how long it would 
take, but these teams are strategically placed across this 
area.
    Mr. Souder. Mr. Wargo.
    Mr. Wargo. Sir, our office, along with the State Police, 
hosted a presentation here early in 2003 and invited everyone 
in Elkhart County that works for the various cities and county 
agencies; building inspectors, fire personnel, volunteer fire 
personnel, State police personnel, put on a very extensive 
program. What we had hoped to accomplish by that, and we 
invited all of our law enforcement officers as well, is that as 
soon as you suspect that you have a meth lab, back out, secure 
the perimeter, contact Indiana State Police. So our officers 
are very much aware that they have no skill in trying to deal 
with what they may encounter in this situation. The problem is 
making sure that they are aware of their surroundings if they 
see 300 empty boxes of Sudafed and they start putting two and 
two together coming up with four. But the main thing is to 
secure the perimeter and contact the people who have the 
expertise, the equipment and the ability to dismantle it.
    Mr. Souder. Detective Anderson and then Corporal Ciriello. 
I need to yield to Congressman Chocola, but I want to kind of 
play this out.
    All that sounds really good, but you are saying you are 
using drug buy funds to buy protective equipment. They are 
saying the State Police is supposed to come in and do that. Why 
do you need protective equipment? You are saying your officers 
were there in the middle of it, they did not necessarily know 
what exactly they were getting into. What is your reaction to 
that? Let me be really kind of inflammatory here for a second. 
If you are from Allen County or St. Joe County or Elkhart 
County, are they big enough, do you get response fast enough? 
What is the deal here?
    Mr. Anderson. We bought the equipment after we raided the 
lab with nine individuals and three batches cooking at the same 
time. We had one individual down in the house and we had no way 
of assessing even what was going on. They were at the point of 
using what is called an HCL generator and there was just a lot 
of smoke in the house. As you got near the door, you could feel 
the acid burning on your tongue. So that is when we decided 
that we needed to protect ourselves, because eventually, even 
after the clan lab gets there, we are still going to be in 
there helping them process the evidence.
    Mr. Souder. But do you agree that the best approach and 
that that is functional to say OK, this looks like we see some 
materials, back up?
    Mr. Anderson. Yes, we call them every chance we can.
    Mr. Ciriello. And we do the same thing. Every time we find 
a lab, we do call them to come in for the cleanup process. Our 
thing is, and we talked about the hazards to our officers, is 
when we first pull up and discover the lab, and we have 
individuals in there working the lab cooking, we have to make 
the arrests on them and get them out and secure the area. Once 
we get the individuals that are doing the manufacturing out of 
there, we secure it, we stay back, we call them and let them 
come in and do their thing.
    Mr. Souder. We will followup on this a little bit more. Mr. 
Chocola.
    Mr. Chocola. Just to followup on that. If you have 
information that there is a potential lab, do you call the 
State Police to go with you or do you go by yourself, if you 
had previous knowledge?
    Mr. Ciriello. If we know that we have a lab that we are 
going to be going to, we go ahead and contact the clan lab team 
from the State, let them know where it is at, and they have 
questions that they need answered, so they know who to call 
out, how many to call out and so on. We answer them the best we 
can. We have not in the past waited on them to get there. 
Generally where we are at, the closest place to us is Fort 
Wayne and it takes 2 or 3 hours. It is not their fault, I mean, 
you know, the equipment has to come or they may be tied up on 
other labs. We go ahead and serve a search warrant and get the 
individuals involved and again secure the area from there. But 
they are notified as soon as we are going to get a search 
warrant on a meth lab, we call the lab team and let them know.
    Mr. Chocola. Detective Anderson, you brought a kit with 
you.
    Mr. Anderson. Yes.
    Mr. Chocola. Could you describe that just briefly?
    Mr. Anderson. Basically that is a safety kit that the three 
officers have. There is a respirator in there with different 
cartridges for whatever gases they might encounter, whether it 
be anhydrous or phosphene, and then some field test kits for, 
you know, sampling the drugs to determine what you do have.
    One of the things that I have been called out to several 
times is leaking anhydrous cylinders, and one of them that was 
another reason that I purchased the safety equipment, kids went 
to get on a school bus at a house over by North Judson and 
there was a big white cloud like a fog coming out of the woods 
back behind them. Apparently their father had bought some old 
anhydrous tanks to convert to propane for irrigation systems 
and somebody had found them and started stealing the leftover 
anhydrous and left the valve open. So I went out there with a 
fire department person and we had to shut the tank down because 
it was blowing right at the two houses there.
    So sometimes, we do not have the luxury of waiting or 
calling and waiting for the State Police, we have to go in and 
secure suspects and secure the area to keep other innocent 
people from becoming involved in the mishap.
    Mr. Chocola. Are these people that are operating these 
labs, are they typically violent and do you have to go in there 
fearing for your personal safety? I am sure you do, but do you 
typically encounter violent situations or not?
    Mr. Wargo. In our experience, I would say yes, sir, and 
also in addition to all of the hazards associated with the 
chemicals, the precursors, I do not think we have done a search 
warrant on a meth operation where there were not firearms also 
recovered.
    Mr. Anderson. We are finding a lot of firearms in our 
arrests. Most of them usually run or fight or we find firearms.
    Mr. Chocola. Do they use other drugs as well? Are they 
typically involved in several different drugs or are they 
pretty much strictly on methamphetamine?
    Mr. Wargo. No, they are very much multi. They will be 
smoking pot, snorting meth and cooking at the same time. If you 
take someone who is really not very sophisticated, they have 
picked up this recipe--I heard some folks talking about the 
Internet, that is one source. These people exchange this 
information amongst each other in jail and other places. A very 
unsophisticated person putting together and cooking a bath of 
meth, smoking dope and doing it all at the same time. Obviously 
you put all those ingredients together and it is probably the 
most dangerous thing I think that law enforcement has to deal 
with.
    Mr. Chocola. One of the most revealing things to me that we 
have heard in testimony today, I had the impression that most 
of the methamphetamine in our local area was the result of 
local manufacture in these labs, but we heard from the previous 
panel that 80 percent of it is coming from outside of our area 
and Mr. Hill, you testified that is probably the experience 
here in Elkhart County. Is that correct?
    Mr. Hill. Yes.
    Mr. Chocola. Starke County may have a different experience.
    Mr. Anderson. I am not aware of any of it.
    Mr. Chocola. The question I have is why does anybody engage 
in local manufacture? Are they doing it because it is cheaper 
for them or are they doing it because there is effective 
enforcement of things coming in, so that they do not have the 
supply coming from these superlabs so they resort to doing it 
themselves? Why are they engaging in it?
    Mr. Hill. Actually if you do have the stuff coming in from 
out of the area, it is better quality, you can get it fairly 
cheaply and you do not run the risk of blowing yourself up. So 
it is a much better deal for someone. I think in the areas 
where it is being cooked, it is probably an example of less 
availability on the organized networks and then along that 
line, I want to emphasize one point. We have talked a great 
deal about this coming in from Mexico and Hispanic organized 
criminal contacts. This is not a, methamphetamine is not a 
Mexican problem or Hispanic problem in that sense. We have 
large populations of Hispanics that are in the area, many 
legal, some illegal, and many of those who are in the area that 
are illegal are not here to engage in criminal activity. We are 
really talking about a small minority that is taking advantage 
of the availability of these Hispanic communities here to blend 
in, to hide among them, and to become a distribution line. So I 
think it is important to understand that this is not an issue 
of Hispanics are here and so is the meth, and let us blame all 
Hispanics. That is not the issue. It is a matter of taking 
advantage of the fact that there are people who want to be in 
this community and hiding among them.
    Mr. Chocola. If we were to shut down every lab in Indiana, 
we still have a huge problem. That is accurate, right?
    Mr. Hill. Yes, sir.
    Mr. Wargo. In addition, I think Mr. McClintock referred to 
it and I referred to it early in my testimony, our crack 
cocaine wholesale operations are primarily out of Chicago. We 
have developed intelligence very recently that some of our 
local African-American organizations have developed contacts 
with some of the Hispanics here and are getting cocaine product 
from them as well.
    Mr. Chocola. Thank you.
    Mr. Souder. Mr. Carraway, we recently--I mentioned the 
budget and we were talking a little earlier that, is it 
$700,000 that the Indiana State Police has?
    Mr. Carraway. Yes, sir.
    Mr. Souder. Could you describe, that we specifically in the 
appropriations bill earmarked for meth in Indiana.
    Mr. Carraway. Sure.
    Mr. Souder. So could you describe a little bit what you are 
likely to use that for and what your greatest need areas are, 
as we look at next year's budget?
    Mr. Carraway. As you can imagine, the largest portion of 
any of the resources that are utilized to clean up 
laboratories, to be there to collect evidence, to be part of 
the investigative team, is the manpower hours that are 
utilized. Individuals are called out at all times of night. As 
I explained, there is only about 100 of these certified 
officers in the State and there is not a day goes by that I do 
not get a report of at least two to three of these labs in the 
middle of the night that have been assembled. So overtime 
manpower dollars is a large portion of that. Another portion is 
for equipment, both personal protection equipment as well as 
laboratory services equipment; breathing apparatuses are very 
important, evidence kits for the technicians are very 
expensive. Also the containers in which you collect and then 
dispose of, trailers utilized to move this back and forth to 
disposal areas are also very expensive. Laboratory analyzing 
equipment has also been utilized and also manpower dollars to 
hire technicians to actually analyze a lot of the submissions 
that we receive. As you heard, our submissions are up 
enormously.
    Another part of the dollars have been spent is for 
training. Training of officers, training of hotels and motels, 
training of social services workers, training of co-op farmers 
as well as co-op opportunities. So those are some of the areas 
where those dollars actually have been spent. As you can 
imagine, they do not last very long.
    Mr. Souder. Particularly if you are paying people $180,000 
a year.
    Mr. Carraway. Now, now.
    Mr. Souder. Our officers in the line of duty are not 
overpaid, I think most of us agree with that, no matter what 
their level is.
    Mr. Carraway. Sure.
    Mr. Souder. In listening to Mr. Ciriello's point and as we 
try to work this through, do you see if labs are doubling every 
year and their drug task force has five people. How many would 
you say on a bust like that would be involved, two officers or 
your whole team?
    Mr. Ciriello. No, we use the whole team.
    Mr. Souder. So the whole team is there and if somebody 
cannot get there for 3 hours, the entire county's team is tied 
up waiting. Do you see additional staffing posts around or how 
do you see addressing that question? Otherwise, the police 
departments are not going to be able to function with this, 
particularly if it is doubling every year.
    Mr. Carraway. I think each one of these gentlemen addressed 
the issue and so did Mr. Burns and Armand in their 
presentation. One of the most vital ingredients to helping 
eliminate and take down a meth lab is information, 
intelligence, to share that information, to get a broad sense 
of what really is happening before action has been taken.
    And I think we can do that in a number of different ways. 
Mr. Hill talked about the criminal intelligence sharing, which 
is an initiative that is taking a broad approach across the 
country. We understand how difficult it may be to establish a 
methamphetamine HIDTA but Mr. Burns talked about bringing a lot 
of resources into the community with which to deal with that. 
One of those ingredients, one of those resources will be that 
of sharing intelligence information, criminal intelligence 
information. What we probably need to establish again, this is 
just simply my take on this initiative and something we are 
going to try in central Indiana, is to create an intelligence 
fusion center. By doing that, bringing together again all the 
partnerships here in the area, share that criminal intelligence 
information, whether it be drugs, violent crime, fraud 
investigations. All of those issues in ways will address the 
issue of drug movement in the area but will also address 
probably another issue that we do not think so much about, 
terrorism. And we can accomplish that and then utilize those 
homeland security dollars to accomplish it.
    Mr. Souder. Can I ask you a very particular question, there 
are State Police folks on I-69 in Fort Wayne, and they have lab 
training. That is where they would move out of?
    Mr. Carraway. That is correct.
    Mr. Souder. Is there a similar one up in the South Bend 
area?
    Mr. Carraway. Another laboratory?
    Mr. Souder. No, a place where----
    Mr. Carraway. We have a post in Bremen, yes. And the toll 
road.
    Mr. Souder. And if somebody called for help for clandestine 
lab, any of those posts could respond?
    Mr. Carraway. Yes.
    Mr. Souder. How many total people do you have that would do 
that?
    Mr. Carraway. Again, 100 individuals that are certified.
    Mr. Souder. For northern Indiana or that is for the whole 
State?
    Mr. Carraway. That is the whole State, 100. That is very 
important because they have to be certified, OSHA certified in 
doing this. As you can imagine the liability issue is very 
important, so they have to be certified to do this.
    Mr. Souder. Do the posts have multiple teams trained in 
this?
    Mr. Carraway. Yes.
    Mr. Souder. And you felt it is better to have them 
concentrated than have them----
    Mr. Carraway. Well, again, as you can see, this issue is 
all over the State, but we have to be able to call them out at 
a minute's notice. So yes, sometimes it may take that long for 
officers to get there.
    Mr. Souder. Do the people who are responding when they call 
and say I need a cleanup team, that 100 is designated 
specifically for that issue, they cannot be diverted to another 
issue?
    Mr. Carraway. Oh, yes, certainly. It is not all 100.
    Mr. Souder. Part of the problem, Fort Wayne is the biggest 
area in my district and it is 330,000 people in Allen County, 
about 220, 240 in the city with annexation, which rapidly 
changes every day it seems like. That was a political 
statement.
    Mr. Carraway. I understand.
    Mr. Souder. Allen County is sitting there with 330,000 
people, the tremendous demands on the State Police post there, 
how does that impact if that is the primary area, all of these 
smaller counties where the meth labs have the greatest pressure 
and Allen County does not have that? I am just wondering how 
that tradeoff occurs when you are the commander and you have 
cocaine busts going down, huge truckloads of marijuana coming 
through, heroin on the street, Oxycontin, Ecstacy and all this 
going on in Fort Wayne. Trying to deal with all that and then 
these smaller counties call up and say we are sitting at 
somebody's house, he has got meth and they are told they cannot 
go in. I mean is there any way we are going to be able to do 
more training down so it does not have to be concentrated just 
with the State Police is kind of what I am asking.
    Mr. Carraway. Sure, I think that can occur, certainly. The 
DEA obviously is having a rough go at trying to train everyone 
in that aspect of doing it, but it is very important. This is 
highly explosive and toxic material that people are dealing 
with. And I think the training is 40 hours just to be certified 
and being able to dispose of this issue.
    So yes, that can occur, but it is going to cost dollars, it 
is going to cost manpower. We do not have all the resources, 
and you are exactly right, Congressman, we do not.
    Mr. Souder. If it is going to double every year.
    Mr. Carraway. What we try to do is simply meet the need 
that has been happening and with all your help, the dollars 
that you have been providing to us has been allowing this 
overtime to be spent on these officers to respond.
    Mr. Souder. And it is hard for us, particularly with all 
the media stories, to understand the problem is actually 
greater in southwest Indiana.
    Mr. Carraway. That is right.
    Mr. Souder. Oh, by the way, I wanted to have Mr. Wargo go 
through that chart he started because one of the things we 
measure as to whether something is effective or not effective 
is the price going up or down. You have a chart in your written 
testimony that you alluded to that is really dramatic about 
meth in Elkhart county.
    Mr. Wargo. Yes, sir. Over the past 9 months, purchases by 
undercover personnel, in the summer of 2003, $7,500 a pound; in 
the fall of 2002, $6,500; Thanksgiving, $5,500; Christmas, 
$4,500 and into January 2004, it dropped below $4,000 a pound.
    Mr. Souder. That is a really rapid and consistent 
reduction, which is kind of worrisome.
    Mr. Wargo. Yes, sir.
    Mr. Souder. Mr. Hill, you as well as Mr. Wargo mentioned 
about the lack of Hispanics to work undercover. I remember when 
I worked with Dan Coats and we were focusing on a lot of this 
type issue I think back in 1989, in the entire State of 
Indiana, we had one undercover Hispanic who was working out of 
Kokomo and who was fearing for his life because every police 
department in the State was using him at that point.
    Mr. Hill. That is right.
    Mr. Souder. What efforts are done, we have looked at this 
in the terrorism area of needing a rapid expansion of people 
who understand Arabic. Right now something could come across 
the bridge and be anthrax in Arabic and we would not even know 
unless we caught it another way.
    But in the Hispanic language, it would seem to a person who 
walks in here that there are plenty of Hispanics around who can 
speak Spanish. Do we need to do specific, targeted recruitment 
programs aimed at law enforcement to welcome people in, to work 
through this, what needs to be done to boost this?
    Mr. Hill. I think generally speaking, we would all, all of 
us in law enforcement would love to see more minority 
representation across the board or representation of all the 
multi-faceted people that are in our community. It is always 
helpful. And that would just be from a regular patrol officer, 
let alone undercover operatives.
    The nature of the undercover operation is such that it 
takes a particular type of individual. Not every police officer 
is really qualified or good at being undercover. So that is 
something. We need to, because as Mr. Wargo indicated, we are 
in this phase of having so many people first generation, there 
are some cultural buildups of mistrust in terms of what this 
community, how we treat, for example, domestic violence, and 
how it is treated in other areas. I spoke at a forum several 
months ago where the issue of domestic violence came up and the 
concern was we cannot come and talk to you in your office about 
domestic violence because we are afraid that you are going to 
report the abuser. We get into those concerns.
    So I think it is very important that we try to concentrate 
on ways to get people in. Now we can send out signals and say 
we would like for people to apply, but because we have had in 
the last 5 years a huge rise in the number of people here, we 
may just not have the pool of available people who want to 
engage in law enforcement. That is from the police officer 
standpoint. From the confidential source standpoint, that is 
always an interesting subject in terms of who wants to step up 
and help the police. That is not exactly an easy thing to do at 
all times. So we are working on those things as well. It would 
be very, very critical to us to gain information on who are the 
bad folks, and we talk to people about that. And I think the 
Hispanic families that I have talked to here in this community, 
their understanding, they do not want to be associated with 
that negative stereotype that all Hispanics are bad or all 
Hispanics are on drugs. And that is the message we would want 
to send, if we can get information about who the bad people are 
that are making them susceptible to the stereotype. We can help 
ferret those people out of here so that we can all live 
together in one happy community.
    Mr. Souder. I assume it is especially hard to penetrate 
certain families that have a history of criminal activity, who 
are inter-connected? Talking about the one family that may, if 
it is Pasco, WA, that is a big migrant labor area that deals 
with fruit and vegetables; in Indiana we have some of that; so 
does Gwinnett, GA. The vice chairman of this committee, Nathan 
Deal, happens to represent Gwinnett County, GA and we see this 
kind of pattern of movement. But I would assume if you have 
large, and not in the local cooker part, but in the large 
dollars coming through, what we have is inside certain sub-
groups that are not necessarily, but probably has intense 
pressure on the families. Could you describe a little bit how 
this would relate to trying to penetrate into that larger 
network which comes in in both Elkhart and Kosciusko? You said 
those were networks. And then the second thing is the ranking 
Democrat member on this committee, Elijah Cummings, caught me 
on the floor the night before last and said we have to do more 
for witness protection.
    In the ONDCP reauthorization, we have a thing, in tribute 
to the Dawson family in his district in Baltimore, where a lady 
started working with law enforcement and one of the drug gang 
people fire bombed her house and burned her and all her kids to 
death. There has been a rise in intimidation in a lot of these 
big cities in particular, but I am sure it is elsewhere, of 
witness intimidation. Have you seen any of that? When you say 
people are unwilling to come forward, part of it is look who 
you are cooperating with, are you being a traitor to my family, 
but another thing is the actual danger to the individuals. 
Particularly the bigger the type of case. If it is part of the 
transportation network that is putting a lot of narcotics into 
a zone, I presume it is a lot more pressure than a small one 
where they can basically abandon it and run to something else 
or move to another county. You are looking at potential Federal 
violations, life sentences, all sorts of different things.
    Any comments?
    Mr. Wargo. There is very much an intimidation factor that 
we have to try to overcome, especially with the first 
generation individual. Whether they are from Latin America, 
Central America, Cuba or Mexico, they do not trust law 
enforcement, they do not trust the judicial system. So they are 
very reluctant to talk to us at all. So it is even more easy to 
intimidate those people, because you not only convince them 
that if you talk to the police I am going to kill you or cut 
your throat. Or No. 2, if you talk to the police, you know they 
are all corrupt, they are all crooked and, you know, they are 
going to tell me that you have been talking to the police. They 
are predisposed to believe that what they have experienced in 
their home country prior to coming here. It would be very easy 
for someone to convince them that both of those things are 
true. No. 1, I will cut your throat. No. 2, if you talk to the 
police, they are on the take and they are going to tell me that 
you have been talking to them. So the intimidation factor is 
huge.
    We have had several homicides in Elkhart County in 2003 
that are directly related to the drug trafficking and 
intimidation. We had one witness that was murdered that was 
going to testify in a trial the following week. We had another 
person that was murdered as part of another drug investigation 
that was ongoing. And it is very easy to point to those 
murders, and in some cases I think they take credit for murders 
they do not commit, and say you see, you saw what happened to 
him, right? Well, that is what will happen to you. So that is a 
huge problem that we have and then complicate that even more by 
the language barrier. And that is what we are trying to 
overcome.
    Mr. Souder. Mr. Ciriello, do you have anything to add?
    Mr. Ciriello. The things that Bill said are the things that 
we see also.
    Mr. Souder. Mr. Anderson, you said you had some deaths in 
your county due to Oxycontin.
    Mr. Anderson. Yes.
    Mr. Souder. If you lump the two together, how many were 
Oxycontin?
    Mr. Anderson. I do not have those exact stats. They have 
what they are mixing and calling a Knox cocktail, and that is 
where they are mixing Oxycontin, Xanax, methamphetamine 
together and what I looked at on those 16 deaths were one of 
any one of the three as a combination in overdoses.
    Mr. Souder. OK. Do you have any additional questions?
    Mr. Chocola. Just one last, Detective Anderson, your 
testimony today and our conversations earlier, it strikes me 
that you say somebody could be incarcerated for a year and 
within a week they are back at it. What is a deterrent? I mean 
are prison sentences, harsher sentences, is that a deterrent 
for this or not?
    Mr. Anderson. Well, we certainly would hope so. Here in our 
jurisdiction, we firmly believe in utilizing long prison 
sentences for dealers as an effort to deter and essentially 
raise the stakes and say if you are going to come into this 
community, here is what you are going to look at. Is that the 
complete solution? Probably not, but I also hear talk about 
treatment which we all would like to see. But with the 
treatment aspect, unless someone is willing, No. 1, to seek 
treatment and then also willing to take the medicine, if you 
will, treatment can sometimes go up in smoke as well. So it is 
going to be a multi-faceted approach.
    But certainly if you have major distributors of 
methamphetamine in your community and you want to send a 
message to that person and you want to send a message to all 
his buddies that are out there waiting to take his place, it is 
come on out and we will send you down to prison once we get 
you. That is the message that we continue to drive home.
    Mr. Chocola. I unfortunately will not be able to stay for 
the completion of the third panel, but I wanted to ask this to 
the folks on that panel. If someone is willing to engage in 
treatment, rehabilitation, is there success? Have you seen 
success? Or is this a tougher or different drug than some 
others?
    Mr. Hill. I would say the first thing is if someone is 
willing, that is half the battle right there. What we see 
sometimes in law enforcement and the court system is everybody 
steps up to the plate when the judge is on the bench and says 
Judge, I need help. And that is a little disingenuous at that 
time. We do not know if that person really needs help, desires 
help or wants to show contrition for the sake of getting 
through the system.
    From my standpoint, any time someone steps up and says I 
need help, I need treatment--if we had somebody that came to 
our office today and said look, I am a large methamphetamine 
user, you have not caught me yet, and I need help. We are not 
going to arrest that person. We are going to do what we can to 
find that person some help, because they are somebody who said 
I need help and I am willing to step up to the plate. It is a 
little bit different once we have caught them in the net in 
terms of how at least I view it.
    Mr. Anderson. What I have been seeing a lot in our area is 
the local doctors are prescribing methadone or methadose to try 
and bring them off of the meth and the Oxycontin and the last 
problem we had, we were finding methadose tablets all over this 
lab location, so I am not sure that is a cure either. You do 
not use a drug to break another drug.
    Mr. Chocola. Thank you.
    Mr. Souder. Thank you. I really appreciate the patience of 
the third panel, but I want to do one other thing before we do 
this. And we do not usually do this at a hearing but there is a 
particular circumstance.
    Mr. Murtaugh, you have been here this morning, if you 
could, would you like to say anything? If you would come up, I 
will briefly swear you in because he is from the U.S. Marshal's 
Service.
    [Witness sworn.]
    Mr. Souder. Will you state your name and position for the 
record?
    Mr. Murtaugh. David Murtaugh, U.S. Marshal, Northern 
District of Indiana.
    Mr. Souder. You have been able to listen to two panels 
here.
    Will you spell your name for the court reporter?
    Mr. Murtaugh. M-u-r-t-a-u-g-h.
    I believe I can only support what they have said here. The 
information highway is what needs to be brought here. As the 
superintendent said, we have information from Elkhart County 
and it is not being shared with information from St. Joe County 
or Starke County or Kosciusko County. And that is what the 
HIDTAs are intended to do. They are intelligence driven and 
that is what we are trying to do, is to try to develop 
intelligence data bases so that we share information, so that 
we share jail records, so that we share what other task forces 
are doing, because criminals go from one area to the next and 
if we are not in a position to be able to share the information 
with our fellows in law enforcement, then we are breaking down.
    That is one of the other things that I think we really need 
to move forward with and we need help in those areas because 
that is something that is very easy to do with the information 
technology that is available today and data bases. If we put 
those in, then data bases can be built and they can be shared 
statewide.
    Mr. Souder. Thank you. And if you want to insert anything 
additional in the record, I wanted to make sure that I got it 
into the record that you are here because the U.S. Marshal's 
Service is often not as recognized in the process because you 
are the executing division. The bottom line is if you do not 
get the warrants served, if you do not get the guys from place 
to place, the whole system breaks down. And we appreciate the 
efforts that you have done in northern Indiana in assisting in 
the narcotics effort.
    Mr. Murtaugh. Thank you.
    Mr. Souder. With that, this panel is adjourned. We are 
going to take a brief recess, very brief, and if the third 
panel will come forward.
    [Recess.]
    Mr. Souder. The subcommittee is now back in session. If 
each of the witnesses for the third panel will raise their 
right hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that all the witnesses 
responded in the affirmative.
    First up on this panel is Mr. Kevin Enyeart, he is the Cass 
County prosecutor. We appreciate, let me say up front, the 
third panel always gets kind of the short end of the stick in 
one sense because everybody in the first two panels will tend 
to go, although a few will be around I can see here. But under 
our committee procedures, the standard is pretty clear that the 
Federal Government representatives are in the first panel and 
then we try to do a mix on the other panels and I appreciate 
your patience with this. It will all be there the same 
regardless. But I appreciate your willingness to be patient 
with us getting a little bit of a late start and then having 
lots of witnesses.
    This has been very comprehensive as you can see, and as we 
move through this, we are continuing to move through the law 
enforcement side and then into prevention and treatment 
questions, because we cannot just do it with the law 
enforcement side. That is why it is a good balance to work 
through the process in the hearing of identifying the problems 
and then what we are trying to do to help with the problem, not 
only with law enforcement, but also with the treatment side.
    So, thank you, Mr. Enyeart, for your willingness to be here 
as a prosecutor dealing with what we heard earlier of some of 
the challenges. I will yield the floor to you.

STATEMENTS OF KEVIN ENYEART, CASS COUNTY PROSECUTOR; DOUG HARP, 
  CHIEF DEPUTY, NOBLE COUNTY SHERIFF'S OFFICE; SERGEANT JEFF 
SCHNEPP, LONGANSPORT-CASS COUNTY DRUG TASK FORCE; BRIAN CONNOR, 
 ACTING EXECUTIVE DIRECTOR, THE CENTER FOR THE HOMELESS, SOUTH 
    BEND; BARRY HUMBLE, EXECUTIVE DIRECTOR, DRUG & ALCOHOL 
   CONSORTIUM OF ALLEN COUNTY; AND BENJAMIN MARTIN, SERENITY 
                          HOUSE, INC.

    Mr. Enyeart. Thank you, Mr. Chairman. Good afternoon now. 
My name is Kevin Enyeart, I am the elected prosecutor for the 
29th Judicial District of Indiana which is Cass County. I have 
been in that position as the deputy prosecutor/prosecutor for 
over 8 years now. I want to add something that is not in my 
written testimony.
    When I was a part time deputy prosecutor, I also 
represented the Division of Family & Children, something I took 
a great of pride in. And I could not agree more with the 
testimony of Mr. Burns earlier when he said this should be 
about children first. I say that for a lot of reasons, one of 
them being an example. One of our methamphetamine labs that we 
shut down, we went in and a 5-year old boy was helping his 
father cook methamphetamine. The boy told law enforcement ``I 
am helping daddy make medicine.'' I think that underscores the 
importance of putting children first and we need to do that 
also in the methamphetamine problems that we face.
    I consider it a great privilege to be able to be here today 
to testify and I will start out by telling you a little bit 
about Cass County. We are a rural county. Logansport is the 
county seat, we are just under 41,000 people. And the reason 
that is important is because the large methamphetamine problem 
that we have is directly related to the easy access of 
anhydrous ammonia in our community.
    Prosecutor Hill said earlier that a large part of the 
problem here appears to be outside sources of methamphetamine, 
and I do not want to underscore that enough. I think that in 
Cass County, we also have outside source problems with 
methamphetamine, but what we are seeing in the lower socio-
economic levels is methamphetamine labs that are made, set up 
to sell methamphetamine. You also have the low level users who 
are doing it just for their own use, but we are seeing a lot of 
people who are actually setting up their own lab in order to 
effectively market and make a profit in the methamphetamine 
problem.
    We in Cass County have been overwhelmed by the 
methamphetamine problem. We have had an additional court added 
recently. We have a great number of cases in our system. We 
tried just one this week. There are both direct and indirect 
consequences to the use of methamphetamine, but from a criminal 
justice perspective, it is very important that we focus on the 
indirect. The direct is obvious, the people who are hooked on 
methamphetamine, the people who are distributing 
methamphetamine and the people who are manufacturing 
methamphetamine. But in my opinion, as a prosecuting attorney 
and looking at what we see in the criminal justice system, the 
most important things that we need to look at are the indirect 
consequences--the health of the people involved, the loss of 
jobs, the loss of homes, the problems that we have dealing with 
children and the long-term effects on them.
    One thing that I have not heard highlighted today is the 
highly addictive nature of methamphetamine. I think it is so 
well recognized among everybody who testified, we take that for 
granted. But in the criminal justice system, what I have seen, 
once we have somebody charged with felony offenses, it is not 
uncommon--in fact, it is rather regular for us to see someone 
bond out on an A or B felony methamphetamine charge and then be 
picked up again while they are out on bond. Previous people who 
were testifying talked about as many as three or four labs at a 
time while they are waiting for the first case to go to trial. 
And Cass County, IN is no exception to that. The burden on our 
criminal justice system is extraordinary. That is the one thing 
that I would like to highlight.
    As a prosecuting attorney, I am concerned with not only the 
enforcement of our existing laws, but the long-term negative 
impact that methamphetamine has on our family members, our 
friends, our neighbors and our children. The cost is not just 
in dollar terms, but it is extraordinary. I think that is one 
of the things that I think is part of the job of a prosecuting 
attorney, to get that message out. I often say that a 
prosecuting attorney has a pivotal role in our criminal justice 
system and to our communities in general because we have the 
ability to be the mouthpiece in areas such as methamphetamine.
    And in Cass County, our Chief Deputy Prosecutor accompanied 
me today, her name is Lisa Swain. We have taken very seriously 
reaching out to young people. I think we need to go even 
younger than we have, but we have been concentrating on high 
school aged children. And recently, when I was speaking to 
children, to high school students, I was shocked, because we 
started talking about methamphetamine and one of the things I 
have been trying to do as a prosecutor is tell young people do 
not do it. In my opinion, methamphetamine is much worse than 
cocaine. And when I was speaking to that classroom group of 
high school students, two girls, one of them turned her back to 
me, looked at one of her friends and I saw her roll her eyes. 
That was shocking to me. It was a rural, small community high 
school, and that really opened my eyes to the problem that we 
have.
    Our first meth lab was in January 2001 and each year we see 
more and more of a problem. In Cass County, we were able to, in 
2001, obtain a Byrne Drug Grant. That has been essential to me 
as a prosecutor because that money that is administered by the 
Indiana Criminal Justice Institute allowed me to hire another 
prosecutor. The problem is that money is drying up this year 
for our office. We will not have that money next year unless 
Congress does something to restore that funding and make me 
eligible for yet another year of that funding. And I think the 
consequences of us losing that money would really hurt our 
office.
    I believe that criminal prosecution is necessary and should 
be used in a large number of cases. However, whenever possible, 
our society should look at incarceration as a last alternative. 
And I am looking at that from a small town perspective. I was 
born and raised in Cass County and a lot of the people that we 
see on methamphetamine are hopelessly addicted to it. And that 
is why I wanted to talk about the highly addictive nature. Our 
recidivism rate is extremely high. I do not know what the 
numbers are, but I can tell you that my guess would be at least 
9 out of 10 people, when they are sitting in jail, as soon as 
they get out, they are going to go try to find or make some 
more methamphetamine. And I have actually talked to criminal 
defendants who have spent time in prison who will tell you 
honestly as soon as I get out, I'm going to go set up another 
lab and I'm going to take some more meth. That is why we need 
to look at education and that is why we need to look at other 
alternatives to incarceration.
    As you know, Mr. Congressman, the cost of incarceration is 
the most expensive thing that we can do in our criminal justice 
system. I believe in a large number of cases, that is what we 
should do. But we also need to look at other alternatives. And 
what I think that Congress can do to help at the local level is 
to help us set up money and resources for drug court programs. 
In limited cases, people who I consider to be low level users, 
we could consult with judges, probation, prosecutors and other 
community services to decide who would be allowed to get into 
that program. If we do not educate these people and give them 
the resources necessary, then we are just going to see them 
back again and again and again. And I have seen in the criminal 
justice system people lose everything. I have had mothers lose 
their children, I have had people lose their jobs, their homes 
and everything that they have ever worked for in their lives. 
And that is why that is really important, that we need to look 
at alternatives to incarceration.
    Some people that are on methamphetamine are hopelessly 
addicted and we need to do whatever we can to help them get off 
that drug. In my opinion, the Federal Government can assist 
local prosecutors and local law enforcement in two ways. First 
and most importantly, education. Education on a national level, 
whether that be through print media, television media or other 
ways, it is very important. Second, as everyone else previously 
has said, we need money. We need to finance our other efforts, 
our other alternatives and we need that assistance from the 
Federal Government. Programs like the Byrne Drug Grant have 
been essential to local prosecutors and they should continue. 
Funding of these programs is difficult in these times, but we 
need to keep doing that because every dollar we spend in those 
kinds of programs helps us from spending $10 more in the 
future.
    Methamphetamine and that problem is not going to go away 
any time soon and we must address it, and that is the reason 
why I am here today. And I do appreciate the time and offering 
to let me testify. I appreciate that very much.
    Mr. Souder. Thank you for that testimony. We now have a 
recidivist of sorts, Mr. Harp, who has actually testified 
before this committee before.
    Mr. Harp. That is correct.
    Mr. Souder. In Washington, DC. Thank you for being patient 
and we look forward to your testimony.
    [The prepared statement of Mr. Enyeart follows:]

    [GRAPHIC] [TIFF OMITTED] T5267.040
    
    [GRAPHIC] [TIFF OMITTED] T5267.041
    
    [GRAPHIC] [TIFF OMITTED] T5267.042
    
    [GRAPHIC] [TIFF OMITTED] T5267.043
    
    [GRAPHIC] [TIFF OMITTED] T5267.044
    
    Mr. Harp. Thanks for having me again, I do appreciate it.
    In 2001, I testified before this committee, along with 
former Sheriff Doug Dukes. And one of the things that we talked 
about at that point in time was the growing trend of meth usage 
in our county, Noble County, and we also cited at that time a 
lot of the examples of cases which exemplify the bizarre 
behavior of the meth user and the increasing violence 
associated with the users.
    At that time, we were certain that we had not peaked in 
terms of meth usage and production. And unfortunately, our 
predictions were correct. We currently have the distinction of 
ranking 10th among the 92 Indiana counties in meth lab arrests. 
In 1996, Indiana recorded just six meth labs for the entire 
year. And this year, investigators shut down 1,260 labs 
throughout the State. So the increase is just incredible. If 
you look at that in terms of percentages, it is mind-boggling. 
The cost for disposal of these labs is estimated to be in 
excess of $66,000, which I think is very conservative. And one 
of the factors not included in this is the cost of the manhours 
involved.
    The statistical information regarding the increase in meth 
production and usage is staggering and very frightening. A 
recent study conducted by the Rural Indiana Profile reports 
that eighth graders in rural settings are 108 percent more 
likely to use meth than eighth graders in urban areas. 
According to the U.S. Sentencing Commission, arrests for meth 
offenses in Indiana rose 81 percent from 1995 to 1998. I cannot 
imagine what type of increase we have had since 1998.
    We have seen a dramatic increase in the anhydrous ammonia 
thefts. I know a lot of people have talked about that. We have 
farm supply facilities in our county and we also have a lot of 
production facilities that also use anhydrous in their 
production process and we have seen thefts in those areas as 
well.
    I know one of the things that was talked about was the 
pricing, and we have seen that decrease in pricing as well. Our 
prices are going down. I worked in an undercover capacity for a 
couple of years and, you know, any time you see the price of 
narcotics going down, you know that you have a lot. It has been 
flooded, your market has been flooded. And we have seen it just 
like everybody else has, in the decrease in meth prices.
    One other area of concern for us, which just really has 
happened recently, is one of our neighboring counties has an 
active chapter of the Outlaw Motorcycle Club and the Outlaws 
historically have maintained a very sophisticated 
methamphetamine network. They are also known to absorb puppet 
clubs to assist them in the drug distribution. And this very 
scenario is taking place in our county. I know that a couple of 
people have addressed the motorcycle clubs and I think 
downplayed that a little bit with the Mexican nationals, you 
know, and so on. But I still think that's a very, very good 
source of methamphetamine distribution and we are very, very 
concerned about that. And association with that, obviously the 
violence that comes with motorcycle clubs, motorcycle gangs.
    What can be done to stem some of these meth trends? We feel 
pretty good in certain areas, we feel in training our deputies, 
our firefighters, our EMS personnel throughout the county, we 
have done a lot of training and we feel very good about that. 
We have also done a lot of programs, conducted a lot of public 
awareness programs, both in the schools and the community as 
far as education. We have a lot of work to do in addition to 
that yet, but we feel pretty good about that right now.
    What can be done to help us at the local level, and one of 
the things that we obviously need is funding for training, 
equipment and manpower. And one of things that I do not think I 
have heard addressed today, which in looking at the past couple 
of years is something that we have had to do in terms of our 
budget. To try to decrease spending in our budget, we looked at 
overtime that the officers were paid and we went to 
compensatory time in lieu of overtime dollars. And on the face, 
it makes us look really well, you know, it is an 
administration, we have knocked down the overtime budget 
considerably. But when I got to looking at what it meant in 
terms of available police manhours last year alone, 2,132 hours 
in 2003 where we normally we have had a police presence, we had 
officers off because they were off on comp time. You know, if 
we are going to fight meth and fight it effectively; you know, 
we have gotten a greater increase in meth production and meth 
labs and we have gone backward in terms of police presence that 
we have on the road. A lot of our cases are generated by the 
road officers out making traffic stops because, as you have 
heard today in some of the other testimony, a lot of the labs 
right now are very mobile and we get a lot of results from 
traffic stops.
    So the big thing for us, again, is like everybody else, 
manpower, equipment and funding.
    But again, I would like to express my gratitude for being 
invited here again and I appreciate everything that Congressman 
Souder has done. He has always been very helpful in this 
problem and we do appreciate it.
    Thank you.
    Mr. Souder. Thank you. Sergeant Schnepp.
    [The prepared statement of Mr. Harp follows:]

    [GRAPHIC] [TIFF OMITTED] T5267.045
    
    [GRAPHIC] [TIFF OMITTED] T5267.046
    
    Mr. Schnepp. Thank you. I would also like to express my 
gratitude for being here to tell you all the problems in Cass 
County along with my Prosecutor Kevin Enyeart.
    I have been assigned to the Cass County-Logansport Drug 
Task Force for 5 years and I have been a police officer for 23 
years. Our task force consists of four officers; myself, two 
Logansport Police Officers and an Indiana State Trooper.
    Our first lab discovery was January 2001, we are averaging 
12 to 14 labs a year.
    I will skip through a lot of this and make it go quick if I 
can.
    We have two labs this year, we recovered a partial lab 
Wednesday night. Anhydrous thefts are doubling. We have three 
distribution centers. We also have three or four businesses 
that use it for cleaning purposes. We are doing stakeouts on 
the distribution centers when we can and when we have the 
manpower.
    Our probation department has 1,200 people on probation. 
They just really started testing for meth the last few years. 
They have had a 5-percent increase in the last year on meth 
tests for positive results.
    The problem we are getting into with the meth labs, the 
last three we have taken down have all had some type of 
surveillance equipment. They have cameras on the barn, 
telescopes in the windows, they have night vision equipment, 
they have radio frequency detection to see if we have a wire if 
we send an informant in to them.
    The bottom line is the bad guys are better prepared than we 
are, they have better equipment than we do. We do not have any 
night vision. We are a small department, we have really been 
running into problems with some of these guys with all their 
counter-surveillance on our officers and also their equipment. 
They are watching our office, they are doing counter-
surveillance on our vehicles. I just ran a wire on a buy 
Tuesday night, I just got a new vehicle 3 weeks ago and they 
were talking about what kind of vehicle I had on the wire. It 
kind of amazed me.
    What I would like to see is a multi-county federally funded 
methamphetamine task force within maybe our district. I 
personally, and the other guys on our task force, we call 
Howard County, Miami County, White County, we try to give them 
as much information, we work together as much as we possibly 
can. But with cocaine buys, marijuana buys, Oxycontin buys, we 
just do not have the manpower to focus straight on 
methamphetamine, which I believe we need to do.
    That is about all I have.
    Mr. Souder. Thank you for your testimony. We are going to 
make a little bit of a transitioning in my questioning. I will 
split that too. We are now going to go to Mr. Connor, who is 
the acting executive director of the South Bend Center for the 
Homeless.
    [The prepared statement of Mr. Schnepp follows:]

    [GRAPHIC] [TIFF OMITTED] T5267.047
    
    [GRAPHIC] [TIFF OMITTED] T5267.048
    
    Mr. Connor. Thank you.
    I appreciate the opportunity to testify today on the 
important issue of methamphetamine use in this State and also 
the influence of drugs on our community.
    I would like to thank you for drawing attention to 
resources, for the needs of communities dealing with the 
effects of illegal drug use.
    I am here today representing the Center for the Homeless, 
one of many service providers in this region who witness daily 
the effects of alcohol and drug use on those living in poverty 
and on the brink of homelessness. The Center for the Homeless 
offers residential services to 200 people daily, including 22 
families with 60 children.
    We collaborate with many partner agencies from the 
community, all dedicated to breaking the cycle of homelessness. 
We provide a broad range of onsite services, including shelter, 
food, medical care, pediatric-occupational therapy, Montessori 
pre-school education, case management, drug and alcohol 
treatment and adult education. All services provided by our 
partner agencies are free of charge to guests of the center.
    The goals and the objectives of our programs and 
partnerships are designed to help people transition from 
homelessness to self-sufficiency and to help them create a life 
in which they can give back to their community.
    The overwhelming majority of people who seek services at 
the center suffer from serious problems such as mental illness, 
drug and alcohol addiction, poor medical health, illiteracy, 
unemployment and isolation from a supportive network of people 
and resources.
    The center's services are targeted to address the depth and 
diversity of needs present among homeless persons, especially 
families.
    Among the population we serve, at least 60 percent are 
struggling with drug or alcohol addiction and 30 percent suffer 
from mental illness which is often undiagnosed. Many are dually 
diagnosed with mental illness and substance abuse issues. Among 
our population with substance abuse issues, the majority abuse 
alcohol and cocaine. While the percentage of those with a 
methamphetamine addiction is not nearly as high as with either 
cocaine or alcohol, the number of methamphetamine abusers has 
steadily increased over the last several years.
    Typical treatment options for people with addictions issues 
are individual and group counseling sessions as well as 
Alcoholics and Narcotics Anonymous meetings. For those who are 
dually diagnosed, their mental illness is also addressed, often 
through medication and case management. Many meth users who 
come to the doors of the Center for the Homeless do not stay in 
treatment for long enough periods of time to allow for a 
complete recovery. Many are seeking treatment for the first 
time and do not have the necessary desire to stay clean. Others 
are seeking treatment solely because it is court ordered. We 
believe that for both of these groups, relapse occurs because 
they do not desire sincere change in their lives. We hear that 
it often takes six or seven attempts before you are able to 
stay clean and sober with treatment.
    Based on our experience, for lasting change to take place 
in a person's life, you must have a strong desire to change 
your lifestyle. The AA and NA model instructs those in recovery 
to change their people, places and things, meaning they must 
not associate with the people or frequent the locations where 
they lived while they were using. These life changes are only 
successful when people have a sincere desire to change their 
ways. In many instances, this happens only after they have lost 
everything important in their lives as a result of their 
addiction; literally hitting rock bottom.
    The difficulty in changing one's lifestyle can be 
compounded by other issues that affect those living in poverty. 
Many of those we serve also do not possess a high school 
diploma or GED. Without a proper education, it is difficult to 
obtain sufficient employment to support a family. In addition, 
a lack of transportation is a tremendous barrier for people who 
live in poverty. With these limitations, the people we serve 
have a lack of choices in where they can live and what types of 
jobs they can hold. With limited options, many people who have 
sought treatment for substance abuse return to the negative 
influences in their lives as it is the only thing they know. 
This often leads to a cycle of poverty that can affect several 
generations as children pick up the behaviors of their parents.
    While the research is clear that methamphetamine is a 
highly addictive drug, one of the most frightening aspects of 
its use, from the perspective of a service provider, is the 
long-term effects that it can have on the brain in cognitive 
functioning of users as well as the severe health issues that 
it can create. The health effects of meth use can include 
cardiovascular problems such as irregular heartbeat, increased 
blood pressure and rapid heart rate. Withdrawal effects can 
include depression, anxiety, fatigue, paranoia and aggression. 
Damage to the brain caused by meth use has been compared to the 
effects of Alzheimer's disease, stroke, epilepsy and 
Parkinson's disease.
    From our perspective, successful treatment is only the 
first step in true recovery for a meth or any drug user. After 
treatment for substance abuse issues, we recommend that persons 
addressing the underlying issues that led them to use drugs or 
alcohol in the first place. Only after beginning to address 
these issues does our organization seek to prepare guests for a 
return to the work force. Many times, a chronic substance 
abuser will have a very poor job history or long periods of 
unemployment due to their drug use. In this case, it can be 
very difficult for a recovering drug abuser to obtain a level 
of employment that offers a livable wage and will allow them to 
live in a neighborhood that is removed from serious drug 
infestation. If the drug abuser is a mother, she often has 
additional barriers to work due to the childcare and 
educational needs of her children.
    The greatest needs we can identify for those seeking to 
overcome drug addiction are in the areas of housing and 
employment. Without safe, affordable housing options, those who 
have received treatment for drug abuse are forced to return to 
neighborhoods where drug use is rampant. This increases the 
difficulty in remaining clean and sober. In order to pay for 
safe housing, those in recovery must learn new job skills 
through training programs or through advanced education. 
Without improved employment options, people are forced to work 
for wages that do not allow them to support their families. 
This drives many to become involved in illegal activities, such 
as prostitution or selling drugs.
    For service providers to be effective at bringing all of 
these services together for those in need, there must be 
support at all levels of the government for organizations that 
effectively address these issues. This support is most needed 
in order to continue service provision for people as they move 
through this process and work to improve their lives and become 
self-sufficient.
    I would like to thank you again for the opportunity to be 
here today and to testify on this important issue.
    [The prepared statement of Mr. Connor follows:]

    [GRAPHIC] [TIFF OMITTED] T5267.060
    
    [GRAPHIC] [TIFF OMITTED] T5267.061
    
    [GRAPHIC] [TIFF OMITTED] T5267.062
    
    Mr. Souder. Thank you. Next, we will hear from Mr. Barry 
Humble, who has worked up in Noble County and now down in Allen 
County. We appreciate you coming up today.
    Mr. Humble. Like my predecessors who have already had a 
chance to speak, I express my appreciation for this opportunity 
to share some information and experiences and hopefully some 
recommendations about dealing with meth in northeast Indiana.
    My level of understanding concerning methamphetamine took a 
serious spike when I began my duties as executive director of 
Drug Free Noble County in 1999. I like to tell people that 
previously in my professional life I became a recovering school 
teacher and had that opportunity to work in a rural school 
corporation for 21 years and my major responsibility was as a 
substance abuse educator and student assistance program 
coordinator, so I dealt with the baggage that young people came 
to school with every day.
    Then before I went to Noble County, I worked for the 
Governor's Commission for Drug Free Indiana and worked with 
seven different counties and this idea about the negative 
impact of alcohol and drugs has already been there, but the 
situation dealing with methamphetamine just increased 
dramatically.
    The devastation that is caused not only by the use of 
methamphetamine, as has already been brought out, is not 
limited to just the cooking process, but also needs to be 
included is the disposal process of the toxic waste. And that, 
here in Indiana, could be incredible. In my professional life, 
I have not accounted a substance that is so quickly addictive, 
is so readily available and is so difficult to treat.
    My responsibilities as a former executive director of Drug 
Free Noble County and currently of the Drug and Alcohol 
Consortium of Allen County emphasize the roles of prevention, 
treatment and justice. It is within that framework that I share 
a concept developed within the State of Kansas that is being 
pursued within the 15 northeast counties of Indiana. The 
following counties each have a community anti-drug coalition 
and participate in a confederation known as the Northeast 
Regional Advisory Board. Those counties include Adams, Allen, 
Blackford, DeKalb, Grant, Huntington, Jay, Kosciusko, Lagrange, 
Miami, Noble, Steuben, Wabash, Wells and Whitley, which 
actually covers three Congressional Districts. I am currently 
the chairperson and we receive guidance from Kelley Wilson, who 
joined me today from the Governor's Commission on Drug Free 
Indiana and her three staff persons. During 2003, there were 
134 meth labs found in these counties, according to the Indiana 
State Police. Deaths, property loss from fires and 
environmental contamination has resulted from these labs. The 
Northeast Regional Advisory Board was looking for a means that 
a community could effectively address these issues and 
discovered a program called Kansas Meth Watch.
    The key fixture of this program includes employee and 
management training of stores that sell precursor products 
involved in the manufacturing of meth. With some modifications 
and additional pieces, we would like to replicate this program 
to be called the Northeast Indiana Meth Watch. Our program has 
three features.
    First, community awareness. A PowerPoint presentation will 
be developed by the former information officer for the 
Kendaville Police Department, Mick Newton, in cooperation with 
the Indiana State Police. This presentation will be used by 
each community coalition with service organizations, fraternal 
groups, churches and whomever else they can get in front of in 
each of their counties. Their presentation will be supplemented 
by pamphlets, billboards and media coverage.
    The second piece is employee and management training. 
Information will be provided to retailers that sell legitimate 
products that are precursors to the manufacture of meth. Many 
of these products are sold at convenience stores that 
historically have high turnover of employees. Information that 
can be a part of new employee training as well as ongoing 
training will be made available to assist retail employees with 
protocol when a suspected sale of precursor products occur. In 
addition, signage will be available to retailers to identify 
their store as a member of Northeast Indiana Meth Watch. In 
addition, we would like to partner with agribusiness agencies 
to distribute tamper tags for anhydrous tanks. Currently, 
farmers can purchase a lock to put on their tank that might be 
sitting out in the field that costs $150. What that results in 
is a loss of a $150 tank lock and still the farmer is at risk. 
I have done some investigating with farmers to ask them, you 
have this big tank sitting out there, would you be able to tell 
if you lost 500 gallons worth of anhydrous? And their common 
reaction is they would have no clue. Well would you be able to 
tell if you lost 100? No. Well, the guys that are out there 
stealing take about 10, they don't know that their tanks are 
missing. What we would like to do is get these agribusiness 
agencies to get these tamper tags that cost about 20 cents 
apiece and then a farmer would know if his tank has been broken 
into. When they have done this in Kansas, they found some 
places that they had to change and have multicolors because the 
tanks had been broken into so many different times. What we 
will be able to do is hopefully prevent a dangerous accident.
    The other concern with employee management training is when 
I was in Noble County, we conducted a workshop that was 
entitled Meth in the Workplace. And what we were able to do is 
create an awareness for employees, but sometimes the 
mentalities that, particular manufacturing based agencies hold, 
is that they are working by production and if they are working 
by pieces and the employee knows that they are going to make 
more money, a lot of them will purposefully use meth to be able 
to go at high rates of speed for a period of time, knowing full 
well that after they have had this experience, they may not 
show up for work. So that was an awareness that a lot of 
employers were not aware of, that the mentality that they 
created also creates an environment to encourage meth use.
    The third thing that we are looking at doing is developing 
a tip line. We have had great cooperation from the Indiana 
State Police Post there in Fort Wayne, and the post had 
distributed throughout these 15 counties some posters a couple 
of years ago working very diligently with employers and helping 
employee training. They had developed an 800 tip line and that 
would be made available to us to use for folks who can call in 
when they notice things that are kind of disturbing or might be 
indicative of meth development.
    The reasons for this cooperative venture are many. First 
the manufacture and distribution of meth is not limited by 
county lines. Because of the high quality of investigative work 
and previous awareness by law enforcement agencies, cookers are 
purchasing precursor products in one or more counties, 
conducting the manufacturing process in still another county. 
While Allen County has had only one meth lab busted in 2003, 
police agencies acknowledge the amount of meth on the streets 
of Fort Wayne is increasing. I give this point of evidence. 
Allen County Probation in 2002 had in their drug urine tests, 
six cases of meth showing up. Now remember, these are people 
who are already in the system, not first time, but are already 
in the system. In 2003, that number was over 100. So if people 
who are already in probation and they are having dirty urine 
screens because of meth, you can kind of multiply that 
astronomically to the potential number of people who are using 
it.
    Second, a unified message for the region, led by the 
coalition in each county will create an effective and credible 
effort. This unified message allows for diversity of delivery 
with a common theme. The intent is not to hinder the sale of 
products used in a lawful manner, but rather create awareness 
that the unlawful use of these products to manufacture and 
distribute methamphetamine will not be tolerated in northeast 
Indiana.
    The effectiveness of the program requires a great deal of 
cooperation and the Northeast Regional Advisory Board intends 
to bring together its resources to make this endeavor possible. 
In terms of what assistance the Federal Government can provide, 
I have these recommendations.
    First, as has been stated before, financial assistance with 
the development and production of videos to be used for 
employee/management training. Information concerning 
identification and protocol would be put in a convenient format 
that would be of great assistance to retailers and their 
employees.
    Second, assistance in developing media campaign material 
such as newspaper slicks, billboards and radio/TV spots.
    And finally, and this may be the most important, we already 
have a significant number of people addicted to meth. Treatment 
providers indicate it is difficult at best to have a successful 
treatment leading to recovery. Research and effective treatment 
modalities need to be developed. In the Northeast Region, we 
might be able to come up with the means to cover the first two 
requests, but we are really struggling to answer the third.
    Thank you for your concern about meth in the heartland and 
we do appreciate this opportunity to share our thoughts.
    Mr. Souder. Thank you very much. Our cleanup hitter is Mr. 
Benjamin Martin of the Serenity House.
    [The prepared statement of Mr. Humble follows:]

    [GRAPHIC] [TIFF OMITTED] T5267.049
    
    [GRAPHIC] [TIFF OMITTED] T5267.050
    
    Mr. Martin. Thank you, Congressman Souder. I am not going 
to read my whole report. I am going to highlight a few items 
that I think are important, and the first one I think is most 
important because I do not think the Federal Government 
believes, understands or whatever it might be, but recovery is 
not treatment. I am in the recovery business, I am not in the 
treatment business. It is a way of life as outlined in the Big 
Book of Alcoholics Anonymous. Treatment, on the other hand, is 
medical oversight with scientific and medical information given 
to the person being detoxed and then evaluated in a way that 
prevents relapse. However, there is very little chance of 
treatment alone working for sustained recovery without peer 
support that they get, that structured recovery programs offer. 
It makes the scientific numbers of success look real good 
because they get their recognition for their success number 
when in fact because there is no differential between treatment 
and recovery by the Federal bureaucracy all the credit goes to 
the scientific and medical community. However, without the 
recovery programs themselves they would be largely 
unsuccessful. Hence, funding is only given to the scientific 
and medical community for prevention, treatment and research.
    The specific purpose of this testimony as stated in your 
invitation letter to me was to examine the state of 
methamphetamine trafficking and production in the midwest 
region and how the Federal Government can assist State and 
local authorities in combating this growing problem. First and 
foremost, we must stop recidivism among offenders. We spend 
billions of dollars on research and largely disregard our 
incarcerated population who by the National Institute of 
Justice's Arrestee Drug Abuse Monitoring Program [ADAM], has 
evidenced that 70 percent of all males and 67 percent of all 
female arrestees for felony crimes ranging from larceny/theft 
to homicide test positive for illicit drug use at the time of 
their arrest and this figure does not include alcohol.
    Shelving, if one can, the cost of human life and the 
collateral damage inflicted upon families and dependents and 
the communities in which the alcoholic and addict reside, it is 
clear that just in the area of public and fiscal policy, both 
in terms of prevention, research and treatment, incarceration, 
our current efforts are proving an abject waste.
    So what do I believe the Federal Government can do to help 
us at the State and local level? No. 1, make it mandatory for 
all Federal, State and community prison and jail facilities to 
provide both treatment and recovery programs available to the 
incarcerated individuals. These inmates are not going anywhere, 
why not treat them while they are there.
    Train and educate prison and law enforcement employees that 
drug addicts and alcoholics are not to be treated as scum but 
as people who have an affliction as they would anyone that 
suffers from diabetes or heart failure. You can go to any 
county jail or anything and watch how one of these people is 
treated by the jailer and you would see exactly what I am 
talking about.
    Third, train the treatment community to identify those 
individuals addicted to alcohol and drugs to ask specifically 
about sexual abuse especially in their childhoods. It has been 
my experience that approximately 70 percent of all women who 
seek treatment and 50 percent of the men suffered from some 
form of sexual abuse. However, I have no data to substantiate 
these figures. They are my best guess from my experience. At 
the present time seven of our nine female residents and 11 of 
the 24 men have sexual abuse issues. Why this is important to 
know, most people who come to us state that they have never 
been asked this question while in treatment and those who do 
not address this issue are much more likely to relapse. It also 
indicates a very large contributing problem to addiction beyond 
just low self esteem from other areas of alcoholism in an 
addict's life. These figures only speak to the numbers seeking 
help from addiction, considering that that is largely believed 
to be only 10 percent of all alcoholics and addicts ever seek 
help, how big is the problem really?
    Fourth, specifically fund research on the sexual abuse 
correlation to alcohol and drug abuse. I believe if my figures 
are even remotely accurate, and many think I am way low, this 
needs to be addressed.
    And fifth, fund recovery-based programs such as ours to 
further the recovery rate by enabling more people to be served. 
Alcoholics Anonymous, Narcotics Anonymous and Cocaine Anonymous 
by tradition cannot take outside contributions; however, 
facilities such as the one we operate is operated under the 12-
step recovery principle. There are thousands of facilities like 
ours in every State of the union and the recovery community 
will help if asked.
    Sixth, offer a reward system for the person willing to 
locate, identify and testify against those who would 
manufacture and/or distribute illegal substances other than 
just the Crime Stoppers programs. This program would be self 
sufficient if the fines levied against offenders were directed 
toward the informants.
    And seventh, increase the penalty for supplying minors with 
any controlled substance including, but not limited to alcohol. 
Certainly if you buy a keg of beer for a minor it is only a 
misdemeanor.
    Eighth, increase the number of excise officers to regulate 
illegal sales and fund police departments with more money to be 
dedicated to the investigation of meth labs and other illegal 
drug distribution points.
    Ninth, most importantly, decrease the billions of dollars 
going into research and redirect it to the aforementioned 
programs. If you read the Doctor's Opinion, page xxv, in the 
Big Book of Alcoholics Anonymous, which I have supplied you 
today, you will find through all of the research that has been 
done we still do not know much more about this disease--other 
than the chemical imbalance and how it relates to the synapse--
than Dr. Silkworth did in 1939 when the book was authored. Not 
a very good return on our dollars spent. Further, I can state 
irrevocably that I have never met the first alcoholic or addict 
that would take a pill offered to relieve his addiction or to 
drink normally. That is not why we afflicted individuals drink; 
we drank or used to get drunk.
    In summation, I would like to also say that I have attended 
the past five CADCA conferences and while I sat through some 
wonderful, informative and outstanding workshops, specifically 
regarding methamphetamine, I regret to say that for the last 2 
years not a single recovery-based workshop has been offered. 
Moreover, much of the professional discussion that did take 
place proved inadequate, misinformed factually and occasionally 
just plain wrong. This is worth attention as there is a 
valuable resource that scientists, doctors, counseling 
professionals and the greater legal communities have left 
largely unmined and which your district in particular would 
benefit immeasurably from. Please believe me when I say I do 
not discount what the scientific community believes to be the 
best they can do, nor do I think they are short of passion or 
dedication. However, I do believe unless they themselves have 
walked in the boots of the alcoholic and/or addict they should 
give serious consideration to including the recovery community 
in whatever they are investigating. This should not be about 
degrees and how much smarter one is than the other, but what a 
community of dedicated scientists, doctors, clergy and 
recovering people can do to help one another understand each 
other and what is the best way to serve the people, both 
addicts and victims of their actions.
    I also want to acknowledge how grateful I am to you, 
Congressman Souder, for the work that you have done to 
eradicate the substance abuse problem in the United States. 
Through your leadership Congress is striving to do the right 
things, and my colleagues are very, very grateful. I also thank 
all concerned for the opportunity to address this committee. It 
says to me that we little guys do count.
    [The prepared statement of Mr. Martin follows:]

    [GRAPHIC] [TIFF OMITTED] T5267.051
    
    [GRAPHIC] [TIFF OMITTED] T5267.052
    
    [GRAPHIC] [TIFF OMITTED] T5267.053
    
    [GRAPHIC] [TIFF OMITTED] T5267.054
    
    Mr. Souder. I want to thank you each for your testimony. I 
am trying to think, I think maybe I will go in a reverse way. I 
think I will start with the law enforcement and kind of finish 
up some of the law enforcement and then go to some of the 
interrelationships.
    Mr. Enyeart, you said in your testimony that you believe 
more money ought to be spent for education. In particular, I 
think you are talking about education and prevention. Would you 
spend it there rather than--in other words, one of the things 
that is not happening here, there is not going to be a big pool 
of money. The question is, should some of what we are spending 
in law enforcement move to prevention and treatment? It is a 
somewhat zero sum game here.
    Mr. Enyeart. From my perspective you need to do both. I 
understand when you only have so much money, just like the 
individual, you have to decide what you are going to do and 
what you are not going to do. In my specific case, if you take 
the money, the Byrne drug money away from me, given the 
tremendous burden that has been placed on my office--I am a 
five-prosecutor office, and we are literally processing 
hundreds of these kinds of cases. That prosecutor that is paid 
for through that drug grant would not be there. Because in Cass 
County we have over a $1 million budget shortfall this year and 
there is no way that my county council is going to give me 
extra funds for another prosecutor. So that is the dilemma I 
find myself in.
    Mr. Souder. We are trying to struggle through it. What I am 
trying to--it is a very difficult dilemma because the Cass 
County budget shortfall is less per population than the Federal 
Government shortfall. The Indiana shortfall is less than the 
Federal shortfall. So what it means is, they do not want to 
raise taxes. The State does not want to raise taxes and the 
Federal Government does not want to raise taxes. I am a 
Republican and I do not like to raise taxes and the people do 
not like me to raise taxes, so our constant dilemma is how do 
we divide up the money. What really comes down to a touchy 
question here is, if you do not get certain dollars to 
prosecute then there is no point. In other words, if they do 
not get enough dollars to arrest and make the case, then you do 
not have anybody to prosecute, and if you prosecute and we do 
not have anybody--if we do not have enough in the prisons that 
does not do any good. What we are really saying is, if we take 
a dollar out of that, where we know we have a person cooking 
meth and we know we have a person who could be prosecuted and 
who could be locked up, if we move that dollar over to 
prevention, are we as confident that we will get an actual 
result for it because at least you can see the tangible. On the 
other hand, if we never spent any dollars over here, this pool 
keeps getting larger and we are chasing it with fewer and fewer 
dollars. We just heard Noble County is chasing it with fewer 
dollars, you are potentially chasing it with fewer dollars. One 
of biggest dilemmas is how do we do that tradeoff, because we 
are under a tremendous amount of pressure right now to convert 
more to the prevention and treatment side because ''the law 
enforcement side is not working.'' And when law enforcement 
says put more money in prevention and treatment it is coming 
out of your budget. That is the dilemma that we are facing in 
Congress.
    Mr. Enyeart. Right. And I would liken that, if you want a 
comparison, to domestic violence. You never know--every case 
that we prosecute could save a life. We had a case in Cass 
County where we prosecuted for domestic violence. That specific 
perpetrator later killed the victim in that case. Not in my 
county. He followed her to another county. How many hundreds of 
cases do we do in domestic violence where we are saving a 
person's life? We will never know that. The same thing with 
methamphetamine. Although, I think it is even clearer, because 
I know people that I have prosecuted and put in prison, I have 
saved their lives, just that person, not to mention the effect 
on their children and the community at large. And while they 
are in prison, they are not out setting up more clandestine 
methamphetamine labs and distributing more meth. The problem 
that I see is for every person that I send to prison, because 
of the financial benefit of doing this, there are three more 
people that are willing to step up and take their place. So 
from a cost effectiveness standpoint, if you have to choose one 
or the other, prevention. That is my opinion, and that is a 
prosecutor who believes strongly that these people ought to be 
incarcerated. But I think if you have to choose which dollar 
goes where, you have to start out with prevention first.
    Mr. Souder. Or at least how you are dividing it. Let me ask 
in a followup question to the prisons. At the Federal area we 
are looking--there is some increase in funding. The some 
increase in funding means we are looking at 4.1 percent and 
there is 2.2 percent inflation, then that gets divided 
differently by different categories and we are hoping that we 
can get additional in the narcotics area because it is 
underneath a lot of crime and breakup of families and all kinds 
of things. I did not mean to make it a hard zero sum, but it is 
kind of a hard zero sum.
    In the mix of things, the Federal Government has most 
jurisdiction over Federal prisons. We could, however, have 
money that goes into State prisons or local prisons. Do you 
agree with the premise that was stated? I think; I know Mr. 
Martin made the statement. I think one of you two may have--did 
you say something similar to that, Barry? In other words--Mr. 
Humble--[laughter.]
    It makes me feel like I am back in school or something. Do 
you feel that the group--because you stated, and almost all of 
the law enforcement people here have stated, that you lock them 
up and sometimes they are on probation and right back out doing 
it again. It is heavily addictive. Would that not be the 
logical first place as opposed to necessarily in a school 
where, when you spend a dollar in the school on prevention 98 
percent of those kids were not necessarily at risk in the first 
place? So you have wasted 98. If you get the person in the 
prison you are pretty much 100 percent sure. Or the jail, that 
they are a problem. Would that not be the first place to target 
prevention?
    Mr. Enyeart. I disagree with that premise and here is why. 
When I ran for prosector, one of the main reasons I did was 
because I think you can make the biggest difference with 
children, and that is why our juvenile program in Cass County 
is extremely good in my opinion. If I have to choose where a 
dollar is going to go, I will spend it on a juvenile delinquent 
every single time before I will spend it on an adult offender, 
and the reason is recidivism. Especially with methamphetamine, 
considering the highly addictive nature of it.
    I guess I would also disagree with the fact--this girl that 
I told you about that I was talking to in that high school 
class, when she turned around and rolled her eyes that shocked 
me, because looking at her, I would not have ever thought she 
was an at-risk student. I think in a rural community like ours 
where you get some marijuana use and these other drugs are out 
there, and then they give you a little bit of meth to try. I 
think the risk is a lot higher than maybe we recognize. I do 
not know. But I think the premise of treating people who are 
already in the system versus younger people who maybe you can 
avoid ever getting hooked on it in the first place, I disagree.
    Mr. Souder. Now you said juvenile offenders. Did you mean 
the technical term juvenile offenders on probation or do you 
just mean juveniles who are breaking drug laws who we may not 
have even picked up?
    Mr. Enyeart. Juvenile offenders who are in the system and 
those who we do not know. I think that is why the prevention 
and education is so important. So I disagree with that. I think 
it is----
    Mr. Souder. Would you agree that prevention--the Drug Free 
School's money has shown no--I mean this is research. Has shown 
absolutely no impact on drug use?
    Mr. Enyeart. You can make statistics say anything you want 
to in my opinion.
    Mr. Souder. Well the fact is that one of our frustrations 
is as we put this money into different counties, you can argue 
that, but what we are hearing--for example in Indiana, we have 
spent a lot of money on it and meth use has doubled. So what is 
the problem?
    Mr. Enyeart. That is a good question. I do not know the 
answer to that.
    Mr. Souder. Well we are going to be zeroing on that, too. 
It is a tough question for us because my assumption is, and I 
am not arguing with your, I am arguing with your premise a 
little, but I am probably trying to test your premise. Because 
what happens is, when we take money from a hard program where 
it may not be as successful as we would like and move it to a 
softer program where we have no real track record at this point 
that it is at all effective, it is; we are giving up kind of 
the bird-in-the-hand to chase two or three in the bush. The 
game would be great if we can get the prevention programs to 
work, but it is slugging it out on the prevention programs.
    Now there are some efforts that the Federal Government has 
tried to do with this. One is the National Ad Campaign. And for 
the last few years, despite criticism, marijuana use went down 
last year by 10 percent. 10 percent in the last 2 years, which 
is the biggest drop in U.S. history in the short-term for 
marijuana use. So the Ad Campaign, counter to the criticism, is 
working in a prevention way. So that is one where we see some 
substance. We have really had to work on these community anti-
drug groups. Noble County was one of the first in the country 
to get one of the first 50 grants through ONDCP and Allen 
County was in the second 50. But it has been frustrating to be 
perfectly honest, and it is frustrating to the people in Noble 
County and in Allen County that we have not seen more of a 
drop. It is sure not from effort because they are out there, 
they have hundreds of kids involved. We are doing programs in 
the school and maybe the fact is that drug use is going up so 
much that we cannot hold prevention as accountable because it 
would have gone up. It would have doubled and gone up at a 
faster rate. It is very hard, because what we know is this: 
Violent crime has dropped dramatically in the United States 
because we locked up the criminals. I mean all you have to do 
is look at the murder rates in the United States, look at the 
rape rates in the United States, and what we see is boy, it 
dropped. Now the problem is that is a short-term solution. Now 
they are all going to come piling out like the reentry program 
in Allen County. They have not recovered. They have not even 
been treated for the most part and they are pouring out of the 
prisons back into the system and we have not addressed it. But 
short-term, at least we lowered the crime rate. That is the 
dilemma we are working through with that.
    I just wanted to probe. I know you had the passion there 
and you enunciated that passion and I wanted to make sure it 
was clarified for the record, because in effect that is an 
important statement. That a prosecutor in a small county 
believes that he would actually take some risk in allowing some 
people to be on the street because he cannot keep up is 
basically what you are saying.
    Mr. Harp. To just address a little bit the Noble County 
drug free school drug free money, and so on. The criticism that 
I hear a lot from fellow officers and from, really from a lot 
of the school people, is that the kids that participate are not 
the kids that we are worried about anyway. They do a lot of 
programs. They do a lot of after-school things and the private 
program is fantastic. My daughter participates in that. But the 
kids that participate in those are ``the good kids.'' They are 
not the kids that typically the school is having problems with 
or probation or law enforcement.
    Mr. Souder. Mr. Humble, would you--we have talked about 
this subject a number of times. First all, and I want to say 
for the record, we all understand that all kids are at risk, 
but that simply statistically is not equally true. As Mr. 
Martin pointed out, if you have been sexually abused you are 
higher risk. If you have a single-parent family you are higher 
risk. If you are low income, it does not mean that all--my son 
goes to Homestead High School which is a higher income high 
school of a public school system in Allen County. Nobody will 
disagree that it is also one of the higher drug use schools 
that has a problem right now. So it is not just lower income. 
But it does not take you too long to figure out that 
disorganized communities are terrorized by drug dealers and 
often those people in the suburban schools are going down into 
those neighborhoods. There is a much higher risk. When I go 
into an inner city school in Fort Wayne and ask this question; 
have you heard a gun shot fired in anger at somebody else? I 
will get 90 percent in inner city Fort Wayne and less than 5 
percent almost anywhere else in the district. Therefore, they 
are bearing the brunt of a lot of that, and they are more 
exposed to a lot of it. If I asked, have you seen a coke dealer 
or a marijuana dealer on the street outside your house, I am 
going to get a substantially different answer in some 
neighborhoods than other neighborhoods. If I ask the question 
have you seen somebody cooking methamphetamine, I am going to 
get a different type of an answer. And the question is, are our 
prevention programs, because we do not want to be politically 
incorrect, we do not want to prejudge, are we not targeting as 
efficiently or designing, because that is one of the common 
complaints. The people who join the programs are the people who 
are not the highest risk. It does not mean they are not risks, 
but they may be a 10 to 15 percent risk factor as opposed to 
the subgroups that are 80 percent.
    Barry, you have taught in a small school. Mr. Humble, you 
have taught in a small school, you have worked in Noble County, 
now you are in Allen County which is a whole different type of 
ballgame. So do you want to comment a little on this, because 
it is the knottiest thorn in the prevention question.
    Mr. Humble. Definitely correct. I think the prosecutor hit 
the nail on the head, because we actually do not know if we did 
not do a program what the rates were going to be. So we are 
judging. We are forced into judging by funders and other 
community activists to prove how effective that we are. I take 
this perspective from working with young people. I still coach 
wrestling, so I still work with kids. I agree that, I agree 
that there are children, young people, even adults that are a 
little more predisposed to the problem because of the 
environmental setting, hereditary, all those other kind of 
factors. But I am constantly amazed at the attitude that a lot 
of adults promote that kids will be kids and they are going to 
let them do this or they going to let them do that. We have 
tried to direct a lot of our prevention program toward parents, 
stepping up and being a parent instead of being a buddy. We 
have done billboard campaigns, media pamphlets, contacts. The 
prevention avenue is so widespread that it takes a lot of 
different things. So you work with the parents, you work with 
the kids. You try. The community also has to step up. You know, 
a child can go out of a prevention program and walk down to the 
drugstore and all of a sudden see more than a thousand messages 
about alcohol, tobacco. I mean you go to what I call your local 
stop and robs, the convenience stores, and you look on the 
counter and there is all these kind of ephedrine products and 
rolling papers. Now I am not, I guess I am not of this 
generation, but how many people actually roll tobacco? 
Legitimate tobacco to smoke? Everybody knows that they are 
rolling them for marijuana. So the community is sending some 
messages that the community needs to be more involved in the 
prevention message for their own neighborhood and community. So 
we are trying to work more at that. My last year that I was 
working in Noble County, and it is a privilege to get to be 
with Ben and Doug again because we worked on almost a daily 
basis, but it is to work with the workplace. Because in the 
workplace you have parents and you also have people that just 
live in the neighborhood or up there, other adults, to get them 
to understand the significance that they can play. So I am 
frustrated. I wish we could see greater results. I do know that 
Noble County has made some significant strides when you 
compare, you know, the pen and pencil survey results. It is 
still not what they would like it to be. We are frustrated in 
Allen County by the fact that even getting the schools to do a 
survey to be able to acknowledge it, and that is based mostly 
because the school officials are afraid of what the community 
is going to say when they really know what the deal is.
    Mr. Souder. Yeah. And the same thing would happen in the 
drug-free workplace. A few people did a test and all of a 
sudden they find in Noble County, what, 15 or 20 percent of 
their employees, and they had denied that they had a drug 
problem.
    Mr. Humble. Right.
    Mr. Souder. But it was amazing when they did a drug test 
what actually happened.
    Mr. Humble. And the end result of that was that the places 
that started having a program, they had greater production, 
better safety records and they actually rewarded their 
employees with the money that they saved, so the employees made 
out like--really well.
    Mr. Souder. Well today has been very informative because 
clearly we have heard that Cass and Starke County have a 
different nature of a problem than Kosciusko and Elkhart and 
Noble and Allen who are at the very edges of a meth outburst. 
It is hopping up, but it is at the edges of that. Probably 
South Bend, similar as we heard. So this question really 
applies more to the Elkhart, Kosciusko, Noble, DeKalb, Fort 
Wayne and probably South Bend, than it does Starke and Cass. 
Looking at Noble County in particular, Mr. Harp, tell me if 
there's any error to this. I understand the testimony from 
those counties, including Noble, particularly, was we have meth 
coming in through large Mexican organizations that represents 
most of the meth. This is true for Fort Wayne, by the way, too. 
That the second biggest cluster are cookers, where there are 
more of them that are involving the local police department, 
but the quantity they are picking up is smaller than when they 
get a bigger bust. The two groups in Noble County that were 
most affected by that were the Mexican networks that are hiding 
inside those who have come in to help try to keep our 
businesses going, which we would not be able to function 
without, and they are hiding among them. And the second were 
biker gangs.
    Now coming back to the question, is there a program, for 
example, in drug-free Noble County--because this is our 
challenge as we look at prevention programs--the kids in the 
programs, are they the people that are likely to be or are kids 
of the people who are in the biker gangs or those networks? I 
know personally it is a frustration that mostly they are not. 
And so we have a disconnect, particularly when you take it down 
to meth, that our prevention programs, how can we get them to 
reach the people who are at the highest risk? I know there has 
been these kind of discussions, reading more Hispanic language 
things. Do we need more Hispanic counselors who are working 
with it? If the kids who are most likely, whether it is for 
spiritual reasons or other wind up in control of these clubs 
and they do certain events, does it become something that those 
kind of kids often do not even feel welcome at just because 
they are uncomfortable socially? How do we work? This is a huge 
challenge, and if we really are going to invest taxpayer 
dollars and then they are going to come back to us and say but 
you have just poured a bunch of money into the meth problem 
prevention and it did not hit the target on the meth, it is 
gone. It will not be there the next time or two. I mean we have 
to have some kind of a plan, and what we are hearing today is 
it is a little bit different in the rural counties. We know 
what the pattern of this is, that the wealthy kids get it 
first. So probably in Allen County it will hit the suburban 
schools first, then it will move to the middle and then the 
lower income. The information systems and the prevention 
programs will hit the kids in the upper income families. They 
will move to another drug and get off of it, like crack 
cocaine, and it will be left in the poorest and they will 
become addicts. And that is where most of the people who wind 
up going to prison and dealing will be. We have seen this 
pattern with drug after drug after drug after drug. So how can 
we get at the front end of this? Is there a way? That is a 
challenge, and if anybody has any thought or wants to add 
anything else.
    Mr. Connor. You know, I would say we do know where those 
kids who are at risk are. They are places like the Center for 
the Homeless. They are the kids whose parents have been 
incarcerated for drug use, for drug manufacturing. It is those 
kids with single-parent families that are suffering abuse. So 
being able to target funds and programs specifically toward 
those groups is a very effective use of prevention dollars. I 
know a lot of the programs that we offer for our kids. We have 
started a new teens program. That is a huge focus of it, 
abstinence, you know, avoiding drugs. Getting kids who are 
already in a system. We know their parents are homeless. They 
are 50 percent more likely to be homeless just from that fact 
alone. Add in the fact that they may never live in a decent 
neighborhood that is not drug infested and that gets amplified. 
So being able to provide prevention programs, but also making 
rehabilitation a part of the treatment. Going through a 
treatment program is one thing, but especially with 
methamphetamine where there may be significant mental cognitive 
delays that do not return. You are talking about somebody who 
after they have used is a different person than they were 
before. How do you rehabilitate that person and get them where 
they can be successful, get them into a decent job and a 
neighborhood where they are not going to be exposed to drugs 
like they would where they are going to automatically go back 
to? You know, being able to identify kids where their risk 
factors are very high, and I think those are well known. I 
agree with you, a lot of the DARE programs and things like that 
are not as effective because they are spread so thin. They are 
spread across every single school. You are right, they are 
going--the kids that are going to those activities are the ones 
that like that social network. It is not the kid who is 
isolated, who has got one parent who is working that cannot get 
him to an after-school function who is probably the most at-
risk kid in that whole school or that whole class that has to 
be in that program. What happens about that child?
    Mr. Souder. I want to do a followup question with you and 
then move to Mr. Martin on looking at this concept of recovery. 
The Center for the Homeless in South Bend I visited years ago 
when I worked for Congressman Coats. How long has it been in 
existence?
    Mr. Connor. Since 1988.
    Mr. Souder. I must have been there in 1989.
    Mr. Connor. It has changed.
    Mr. Souder. Then I was up there again though a few years 
ago. The concept was to try to have not just basically a flop 
house but a place for people to have an integrated service 
provider system that would then do a followup kind of what I 
think Mr. Martin is describing as a recovery system. In other 
words, unless you can get--if you do not--if you cannot read or 
write it is tough to hold a job. It is pretty tough, even in 
those first stages, and if you are doped out it is not clear 
you are going to show up for work it becomes a multiplicity and 
it is an attempt to do that. Now there are a couple of things 
that are unusual. Is the South Bend Center still tied in with 
Notre Dame?
    Mr. Connor. Somewhat.
    Mr. Souder. Do you get fundraising from them?
    Mr. Connor. They are one of our founding partners. They own 
one of our buildings still.
    Mr. Souder. Do you get students coming through there?
    Mr. Connor. A lot.
    Mr. Souder. That type of model, when I worked for Dan 
Coats, we held it up a lot. I think--did the President visit? I 
know that he uses an example.
    Mr. Connor. Jime Touwey came from the Faith Based 
Initiative's Office.
    Mr. Souder. And it is the type of thing that we need to be 
looking at because there needs to be a university component. I 
know when I went to Notre Dame you had certain requirements and 
volunteer hours. Furthermore, one of the things that I have 
looked at in social services that could be used in narcotics 
areas as well in other types of that is that in business, as 
Mr. Connor well knows, one of the things you could do is work 
with small business loans to help them fill out forms and get 
them reorganized. Well why in the social service departments of 
the different units cannot kids either be required or give 
volunteer work to do that? We are trying to work with 
Americorps to try to tie this kind of thing in because unless 
we can figure out in at least the highest--we know that it fits 
the highest risk population because they have already been 
arrested. Obviously it is better to get them the first time 
than the last time. By the time they are up to seven it is 
pretty big. If you can get them. There are kids who are clearly 
higher risk and there is a tier of risks here. We will be 
better off.
    Now, Mr. Martin, could you describe in identifying further 
your difference between recovery and treatment, if we can make 
this very explicit, because you were pretty explicit. But you 
are defining treatment as we would go into X-facility in Fort 
Wayne, we would supposedly have research on what makes it 
effective. Presumably the length of time they are allowed to 
serve is about half as long as the research showed they would 
be----
    Mr. Martin. Or as long as the insurance company will pay, 
yes.
    Mr. Souder. So it is not even--what good does the research 
do if you do not follow through? But basically they go into 
that treatment program and then they leave and then after a 
while they go back into their problem and they go back to the 
treatment program. I have never met an addict who has not gone 
through lots. I do not know whether you would agree with that.
    Mr. Martin. Well, first of all, I am going to address a 
couple of things in answering that. One is the prosecutor. When 
he is talking about the kids, I was one of those kids. I never 
cared a darn about any consequence, never thought about it, it 
was not going to happen to me. I was going to use what I was 
going to use because I was having fun and I was impressing my 
friends and that is all I cared about because I did not feel 
good about me. And until you take that away from a child and 
make them feel good about themselves you have no chance. That 
is why I believe it is better to do it the other way. Treatment 
comes from the scientific community. It has evolved out of 
research and so forth and so on.
    Recovery started in 1935 when Dr. Bob and Bill Dudley got 
together on a first call on Alcoholics Anonymous. It all 
started in Akron, OH. Neither one of them knew it was going to 
work but it did. Was the book divinely written? Probably. I 
think it had something to do with it. It has been successful 
with millions and millions and millions and now there are over 
100 12-step programs identifying everything, bipolar, 
narcotics, alcohol, cocaine, food. I mean it goes on and on and 
on. What makes the AA and CA and NA system stand apart is they 
also have the traditions that treatment has. They do not accept 
any outside contributions from anybody for anything. They take 
no political stance on anything. They are not looking for 
anybody's help, they are not looking for hand outs, they are 
not looking to do anything but affect the person by giving what 
I have been given, a way to someone else is the only way I can 
keep it. That is the whole premise of recovery.
    Why does it work? Because first of all, the person I talked 
to when I came around knew what I was talking about because he 
had been there. You know, you can study all the books you want 
and you can get all the Ph.D.'s you want but if you have not 
been there you will not understand it. I use a premise and 
people might see it as something that is crude but it makes a 
point to the average person. I had an interview out here 
outside today by one of the reporters and she said she 
understood there was such an addictive drug, but, you know, 
certainly it is not like alcohol or cocaine because, you know, 
for those you can use willpower. I said willpower? You cannot 
use willpower for those. She said well sure you can. I said 
well look ma'am, what you maybe ought to do is go home and take 
a box of Ex-Lax and then do not go to the bathroom and use your 
willpower and you will find what compulsion and mental 
obsession is all about. Well that is what the alcoholic goes 
through, and you wonder why they turn right around and go back 
out? Because if they did not get anything while they were in 
prison, they are still the same person they were, only they are 
a little lower because they just served time in prison.
    I heard a couple of them talk about people who offended, 
got out and then 2 weeks later they were back in. I have 
watched that happen the very same day. Well what is the 
difference, you know? Well, they did not get anything, you 
know. And then I had somebody say well what you are asking is 
that we brainwash these guys. Well, I needed my brain washed 
when I sobered up. You know, that is what it took for me. You 
know, I am not just one guy. We are talking about millions of 
people who have sobered up and gotten off drugs through this 
the first time. I have never been back out since April 10, 
1980. It does not make me better than anybody that went back 
out five or six times, just their bottom was different than 
mine. But the point I am making is, it can work the first time 
if a person is willing and is hurt bad enough, and God knows I 
hurt. You know, I was not allowed in my own parents' home the 
last 2 years of their life, and I came from a good home. My 
home was not broken. I did not have parents who abused drugs, 
alcohol or anything. They were loving parents. I was different 
though.
    I was born with buck teeth and got to hear Bucky, Bucky 
Beaver until I was blue in the face in 1958 when that 
toothpaste came out, you know. That hurt. I went and told my 
mom about it--and this is the other thing I want to talk about. 
Every alcoholic and addict has a perception problem. We do not 
see the world like everybody else sees it. You know, when my 
mamma put me on her lap and said do not worry, honey, we are 
going to get that taken care of when you are older, because she 
said when you are 12 we will get braces. That is not what I 
heard. What I heard was her reinforce that there was a problem 
with me, you know. And I grew up hearing four eyes my whole 
life, you know. Well the other thing about addictive 
personalities is we are a little on the over-sensitive part. 
Now whether that is a benefit today that I am overly sensitive 
because it plays into my life today and helps me do what I do, 
it sure was not a benefit as a child because I did not know how 
to react to other people. I only ended up getting to know two 
feelings, you know. One of the feelings was anger and the other 
one was happy and that is the only two I knew. If I was sad, I 
was really angry. Why that is important is because that is the 
very thing that often times you cannot even identify through 
treatment. This is a long-term deal.
    When I talk about the sexual abuse, I mean I got to the 
point where I came right out and started asking people. We had 
a young lady come in yesterday. I caught her totally off guard. 
The thing about catching them off guard, they usually tell you 
the truth. I said any sexual abuse issues in your childhood? 
Well, yeah. How did you know that? Well, I did not, that is why 
I am asking because it is something we need to identify and 
deal with. Am I qualified to deal with her sexual abuse 
problems? Absolutely not, but I know where to take her to get 
her some help. That is where we go back to the treatment route 
again, because those are real, they are serious.
    We do not have an opportunity to cut the fat, you know, 
with the Federal Government about this recovery thing, but 
seriously so many institutions are facilities like we have. 
People are willing to help, they are there but they are getting 
no funding, you know. And what they have always shied away 
from, like the Mental Health Association of Indiana would love 
to see us become licensed. Why? So they can put an MSW in 
there. You know, I mean that is insane to me. What we do, we do 
it very well. But the thing that bothers me most is, when I was 
in Washington I heard two speeches that really upset me. One, I 
tried to get a copy of and have not been able to, the NIDA 
speech. I believe her name was Dr. Baughcall who is the new 
NIDA director. She got up and she talked about what they are 
doing in research in a prevention mode and they were doing this 
with monkeys. She made the statement I believe, so I would like 
to see it and read it. Maybe I have a perception problem and I 
did not perceive what she really said. But what I thought I 
heard her to say was that they thought they could eradicate 
this disease through the prevention mode because of what she 
had discovered with a monkey's brain and reaction to different 
tests they gave the monkey. What I wrote back to her and told 
her was, well, that is great but maybe you ought to check with 
some recovering people who felt what it feels like to have that 
drug in them and why they started to begin with. And monkeys 
have never had a problem with peer pressure nor have they ever 
been sexually abused, you know. Those are factors. I mean you 
cannot ignore the factors. Yet I believe the scientific 
community has all the good intentions in the world. I mean, I 
applaud them for their enthusiasm, but I really believe they 
need to say, you know, maybe we do not know so much. Maybe we 
ought to check with the people that have been through it, done 
that and now are better.
    Did I answer that question?
    Mr. Souder. Yeah, that was really helpful.
    Let me--I want to ask a couple of technical law enforcement 
questions yet because I did not get a chance to do this. I want 
to check from the first panel with Mr. Harp and Mr. Schnepp. 
What did you think of the Indiana State Police. In other words, 
one of the questions I know in Noble County is should there be 
somebody from the Indiana State Police based in Noble County or 
is the current system working well? What was your reaction, Mr. 
Harp, to the discussions you heard?
    Mr. Harp. Obviously any manpower that, if I am hearing 
correctly, the manpower issue is one that really cripples us.
    Mr. Souder. When you find a lab do you wait for them to 
come out?
    Mr. Harp. Yes.
    Mr. Souder. And how long do you have officers there?
    Mr. Harp. It can vary from--you know, if they are close and 
already out, but generally you are looking at--I would say a 
couple or 3 hours.
    Mr. Schnepp. At least.
    Mr. Souder. Is that--yours come out of Peru?
    Mr. Schnepp. Out of Peru. But if they are at another lab 
already, 3 hours, 5 hours, it depends. What I have been doing 
in the last years, if it is not an active lab, if it is just 
like Wednesday night we found a fire extinguisher full of 
hydrous pills and stuff like that. I just called EMA out. Their 
director is certified and he took care of the problem. That is 
what I have been doing. I called the post and advised them of 
what I had and then the EMA director took care of the problem. 
We are talking about 15 or 20 minutes instead of 2 or 3 hours. 
It was not an active lab, but it was still a fire extinguisher, 
a plastic container with rags, ammonia, Sudafed, all that 
stuff, but there was not any chemicals actually brewing.
    Mr. Souder. Let me ask one other question related to the 
types of labs you are seeing when you are working with meth in 
particular. The people you are dealing with--we are talking 
about different types of counties, different kinds of networks. 
Are they--how is it different from what you have seen in other 
narcotics or do you think if we get control of meth they will 
just move to something else? Or is this kind of a different 
subgroup we are dealing with in meth?
    Mr. Schnepp. I am seeing all kinds. We had a plant manager 
that actually had a $200,000 home, they got into it and he was 
stealing the anhydrous from his workplace. He had a 200-pound 
tank out in his pool and he was cooking meth in his pool shed. 
And we have the little guy out here in the mobile home making 
it. I do not think you could really say it is one society. I am 
going to take the heat off the Hispanics and say we were having 
pounds delivered by Vietnamese. It was coming from California 
to like a Hispanic gang type thing out of Fort Wayne, I 
believe.
    Mr. Harp. Are you saying--I mean if we drastically reduced 
methamphetamine are these people going to gravitate to 
something else? Is that it? I am not real sure.
    Mr. Souder. What I am trying to see is, we need to work on 
prevention, getting all drug use down. I'm trying to figure out 
if the meth--it sounds to me--and maybe Mr. Martin or Mr. 
Humble can just--it sounds to me that meth is more like crack.
    Mr. Humble. It is.
    Mr. Souder. Than other types of drugs. You might start with 
marijuana, start with alcohol, smoke cigarettes, move to other 
types of things, but because of its instantaneous pop and 
highly addictive nature that it behaves differently than other 
types of narcotics.
    Mr. Harp. I did not go verbatim on my written statement, 
but one of the cases that I cited in there, one of the problems 
that I have seen is we will have career pot smokers that have 
functioned, you know, and went to work every day and provided 
for their family every day. I even cited a personal case of an 
acquaintance of mine. Once they get involved in meth, they--you 
know, they are done. They lose everything. They lose their job, 
they do not want to work, they lose their family and their 
priorities are totally about getting more meth.
    Mr. Schnepp. They will not feed their children. They will 
send their children out to buy and knowing that if the children 
get caught stealing the pseudoephedrine or the ether cans or 
whatever, they will not get in near as much trouble as the 
adults. They are using their kids.
    Mr. Souder. Well we have had a wide range of things. I 
really appreciate your patience because it has been a long day. 
Do any of you--I will just go down. Do any of you want to say 
anything? Do any of you want to say anything in conclusion?
    Mr. Enyeart. I think Mr. Martin's comments are very 
valuable but looking at my comments, I was not looking just at 
one way to handle it. I think it is the drug court program that 
I talk about.
    Mr. Souder. I understand.
    Mr. Enyeart. The drug court program would be directed at 
people who are in the system. When I say low-level user, I mean 
someone who is addicted and doing it for their personal use. We 
ought to be looking at putting them into programs so that they 
do recover so we are not just treating them constantly. We want 
them to recover. And a good way to do that I think in the 
adult, once the adults are in the system, is through a drug 
court program where the court maybe even on a weekly basis 
brings that person in. They are tested for drugs. If they test 
positive they get a weekend or two in jail. Say this is where 
you are going, and help them through the treatment process. 
Maybe even some incarceration is part of the treatment. Make 
them be in full recovery at some point.
    Mr. Souder. Do you have anything, Mr. Schnepp?
    Mr. Schnepp. No.
    Mr. Humble. I think I kind of like what the prosecutor had 
to say when he said we need to win. We need to develop that 
mentality to win. The problem is all of this drug problem has 
been with us long enough now through some generations and 
people want to see the light at the end of the tunnel. I do not 
know where the light at the end of the tunnel is, but I like 
that win idea.
    The second thing is, in my line of work I have to work with 
treatment, justice and prevention. I agree very much with Ben 
that while these people are in jail there is some neat 
opportunities there. We have a wonderful program, a drug 
program that is housed in the Allen County jail. There is 
assignments, there is information, there is things that they 
have to do. It is not a very expensive program, but that at 
least plants the seed. So that when they do get out and they 
decide that they need a place to stay there are places left 
like Ben has and other recovery houses, that they have a 
chance. It is a big--it is a cooperative thing.
    Mr. Souder. This sounds naive and it is always dangerous. 
But we are doing a reentry program in Fort Wayne, and we have a 
number of things with the prisons, but I think everybody agrees 
first off that probation officers have far too many kids to 
begin to track them.
    Mr. Humble. Exactly.
    Mr. Souder. Have you seen any programs with the kids in 
probation? That seems like a step before.
    Mr. Martin. My son runs one in Coldwater, MI. It is kind of 
like a teenagers day care. If they are not in school then they 
have offended through Teen Corps, Drug Corps or whatever the 
particular offense is, then they go there. If they are not at 
home with parents--if their parents are not home they are at 
this place or they are in school. There is no exception. He has 
really--it is kind of a model thing, but it is pretty 
impressive because it gives them control. You know, he can wash 
the brain a little bit.
    Mr. Souder. Because that may be part of the targeting risk 
before they are into the heavy end of the criminal system.
    Mr. Humble. We are funding a program that is trying to be a 
model where they are taking juveniles who are already in the 
system and putting them in. They get counseling and treatment 
that is a part of that and they work their way through it. You 
know, funding issues, again, how many can you work with? Well 
with this group that we have, we have pretty good results, but 
that is only a drop in the bucket compared to all of those that 
are on probation.
    Mr. Souder. I thank you for your time. We all agree that to 
actually get somebody, there is two things. One, getting them 
off the streets so they do not endanger other people and they 
do not blow up the whole town of Burket, to use an example from 
earlier today. And the second thing is that on an individual 
basis in changing their lives, unless an individual makes a 
commitment it is pretty tough to run through the prevention 
treatment programs. The problem we have is we do not quite know 
what triggers that moment. Sometimes it is purely voluntary 
when they hit bottom, other times it is somebody from their 
family. I had one kid come up to me at one school afterwards 
and said a friend of mine committed suicide last night and I am 
afraid it is going to happen to me. So all of a sudden he hit 
bottom because of something that happened with his friend. It 
is hard to tell. If I can quote this, one of the things I have 
used as an example a lot of times because it was really 
interesting because we had worked really hard in Noble County. 
By the way, one thing I want to say for the record, part of the 
reason Noble County's statistics may be a little different is 
because Noble County knows they had a problem. They went after 
their problem; therefore, their arrest rates, their testing 
rates, the measurement of kids shows a problem that other 
places in other counties--you know, hear no evil, see no evil 
type of stuff. So I did not mean to pick on them.
    One of the things that is really interesting after a number 
of years of working, I was speaking to East Noble High School 
seniors and raised the question, because I am a big advocate of 
drug testing, there should be drug testing. Immediately the 
student council president started berating me, a civil 
liberties question, we do not need to do this, etc. Another 
person jumped all over my case. One student said that they had 
been in an athletic program where there was testing required, 
they basically got caught, were forced to confront their 
parents and would have never gotten off drugs if somebody had 
not held them accountable because nobody seemed to care. Then 
somebody else said yes but everybody should not have to go 
through this, blah, blah, blah, and another kid raised their 
hand and defended the concept of drug testing and we went back 
and forth. The superintendent and the principal both got me in 
the hall and said East Noble is going to start a drug testing 
program, all of which is kind of suspended right now with the 
court decision. We are going to start a drug testing program 
because every single kid who raised their hand has either been 
counseled, arrested or we suspected had a drug abuse problem 
and every kid who opposed it has never been on any watch list. 
Backward from what people say, which kind of I think gets to 
this question that some of them are just out there looking to 
be held accountable and then others just are not prepared. It 
is how to identify them and find them is our challenge and 
prevention and treatment.
    Meanwhile we thank not only those who are helping and 
working with them, but those who are keeping the rest of us 
safe as we work this through, not to mention their children and 
families. Yes, we hope we can do more in prevention but 
meantime protect the ones we can protect. We appreciate you 
taking the risks of walking into homes not knowing what you are 
going to do, not knowing what kind of retaliation the threats 
that every prosecutor gets into
and the risks to your family and so on. We appreciate all that 
you do in these kinds of things too.
    With that, the subcommittee stands adjourned.
    [Whereupon, at 2:06 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T5267.055

[GRAPHIC] [TIFF OMITTED] T5267.056

[GRAPHIC] [TIFF OMITTED] T5267.057

[GRAPHIC] [TIFF OMITTED] T5267.058

[GRAPHIC] [TIFF OMITTED] T5267.059

                                 <all>

</pre></body></html>
